<html>
<title> - LEAD-BASED PAINT POISONING: STATE AND LOCAL RESPONSES</title>
<body><pre>[Senate Hearing 107-802]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-802
 
                      LEAD-BASED PAINT POISONING:
                       STATE AND LOCAL RESPONSES
=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HOUSING AND TRANSPORTATION

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

ENSURING THAT CHILDREN WITH DANGEROUS LEVELS OF LEAD IN THEIR BLOOD ARE 
  IDENTIFIED AND RECEIVE CARE AS EARLY AS POSSIBLE, AND TO INTRODUCE 
   PROGRAMS TO PROPERLY SCREEN AND TREAT CHILDREN FOR LEAD POISONING

                               __________

                           NOVEMBER 13, 2001

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs







                           U.S. GOVERNMENT PRINTING OFFICE
83-473                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  PAUL S. SARBANES, Maryland, Chairman

CHRISTOPHER J. DODD, Connecticut     PHIL GRAMM, Texas
TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
ZELL MILLER, Georgia                 CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JIM BUNNING, Kentucky
JON S. CORZINE, New Jersey           MIKE CRAPO, Idaho
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada

           Steven B. Harris, Staff Director and Chief Counsel

             Wayne A. Abernathy, Republican Staff Director

                    Jennifer Fogel-Bublick, Counsel

                  Mark Calabria, Republican Economist

            Sherry Little, Republican Legislative Assistant

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                 ______

               Subcommittee on Housing and Transportation

                   JACK REED, Rhode Island, Chairman

                 WAYNE ALLARD, Colorado, Ranking Member

THOMAS R. CARPER, Delaware           RICK SANTORUM, Pennsylvania
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JON S. CORZINE, New Jersey           RICHARD C. SHELBY, Alabama
CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
DANIEL K. AKAKA, Hawaii

                       Kara Stein, Staff Director

              Tewana Wilkerson, Republican Staff Director

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                       TUESDAY, NOVEMBER 13, 2001

                                                                   Page

Opening statement of Senator Reed................................     1

Opening statements, comments, or prepared statements of:
    Senator Allard...............................................     3
    Senator Sarbanes.............................................     4
    Senator Dodd.................................................     9
    Senator Carper...............................................    29
        Prepared statement.......................................    32

                               WITNESSES

Susan Thornfeldt, Director, Maine Lead Action Project............     5
    Prepared statement...........................................    33
         Supplemental material...................................    35
Bruce Lanphear, MD, MPH, Associate, Professor of Pediatrics, 
  Children's Hospital Medical Center, Cincinnati, Ohio...........     8
    Prepared statement...........................................    48
        Charts submitted.........................................    53
Nick Farr, Executive Director, National Center for Lead-Safe 
  Housing........................................................    10
    Prepared statement...........................................    71
Sheldon Whitehouse, Attorney General for the State of Rhode 
  Island.........................................................    17
    Prepared statement...........................................    73
Richard A. Fatur, Environmental Protection Specialist, Colorado 
  Department of Public Health and the Environment................    21
    Prepared statement...........................................    76
        Chart submitted..........................................    79
Sue Heller, Project Administrator of the Manchester Lead 
  Abatement Project, Manchester, Connecticut.....................    23
    Prepared statement...........................................    80

                                 (iii)


                      LEAD-BASED PAINT POISONING: 
                       STATE AND LOCAL RESPONSES

                              ----------                              


                       TUESDAY, NOVEMBER 13, 2001

                               U.S. Senate,
  Committee on Banking, Housing, and Urban Affairs,
                Subcommittee on Housing and Transportation,
                                                    Washington, DC.

    The Subcommittee met at 2:35 p.m., in room SD-538 of the 
Dirksen Senate Office Building, Senator Jack Reed (Chairman of 
the Subcommittee) presiding.

             OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call this Subcommittee hearing to 
order and welcome all of you and my colleague, the Ranking 
Member, Senator Allard of Colorado.
    Today, we are looking forward to a hearing on the lead-
based paint poisoning issue, in particular, State and local 
responses.
    Recently, in my home newspaper, the Providence Journal in 
Rhode Island, Peter Lord did a series of columns and stories 
that illustrated the seriousness of this problem, and 
particularly, its 
effect on children. I hope that today, listening to local 
authorities, we can get a better sense and perspective on this 
issue, and particularly, again, its impact on children.
    Despite significant progress in the fight against childhood 
lead poisoning, lead-based paint remains the most serious 
environmental hazard for children in the United States. In my 
own State of Rhode Island, both our General Assembly and our 
Governor's administration have identified lead paint as the 
number one environmental health issue facing Rhode Island's 
children.
    According to the Center for Disease Control and Prevention, 
nearly one million preschool children living in the United 
States have blood lead levels high enough to impair their 
ability to think, concentrate and learn.
    Unfortunately, except for severely poisoned children, there 
is no medical treatment for the disease. Even then, treatment 
may only reduce the level of lead present in the body, and not 
reverse the harm already caused.
    The only way effectively to prevent lead poisoning is to 
remove the source of exposure. After eliminating lead from 
gasoline, dietary sources, such as beverage cans, and paint in 
1978, the primary cause of childhood lead poisoning today is 
exposure to lead-based paint applied to residential properties 
prior to 1978, when the paint was banned.
    More specifically, it is the ingestion of lead-contaminated 
surface dust from chipping or peeling paint, friction from 
opening or closing windows, and lead paint disturbed during 
remodeling and repainting projects. This lead dust gets onto 
children's hands and toys, poisoning them while they engage in 
normal play activities, such as putting hands, toys and other 
objects into their mouth.
    Thus, despite the fact that lead paint has not been sold 
for residential use in more than 20 years, it continues to 
cause serious health problems in children. Lead paint placed on 
walls decades ago has not been removed, but instead, covered up 
by layers of other paint.
    The layering effect means that children today are still at 
risk for exposure to lead paint that may have been applied to 
the homes decades ago. In addition, national health data 
indicate that low-
income children are eight times more likely to be lead-poisoned 
than children from well-to-do families, and African-American 
children are at five times higher risk than white children.
    As a result, I have introduced two bills along with my 
colleague, Senator Torricelli, that are intended to improve our 
ability to detect and treat children at high risk of lead 
poisoning, as well as 
expand our network of Federal program sites where children at 
increased risk for lead poisoning can be screened.
    The Early Childhood Lead Poisoning Prevention Act requires 
WIC and Head Start Early Start programs with children under age 
three to assess whether a child participant has been screened 
for lead and provide and track referrals for any child who has 
not been appropriately screened.
    The Children's Lead Screening Accountability For Early 
Intervention Act, or the Children's Lead Safe Act, would 
require Medicaid contractors to comply with existing 
requirements to provide screening, treatment and any necessary 
follow-up services for Medicaid-eligible children who test 
positive for lead poisoning.
    In addition, I and a number of my colleagues have been 
pushing the Administration and Congress to dramatically 
increase fund-
ing for HUD's Office of Lead Hazard Control. It is our hope 
that 
for fiscal year 2002, the Administration will make lead 
poisoning 
a priority and allocate at least $250 million for that much-
needed 
and dramatically-underfunded lead hazard control grant program 
at HUD.
    However, today's hearing will focus on the nature and 
extent of lead-based paint poisoning, what percentage of our 
Nation's housing stock is hazardous, and initiatives being 
undertaken by local and State governments to deal with this 
problem.
    This hearing is only the first in a series on lead-based 
paint poisoning. It is my hope that these hearings will help 
shine a light on this terrible problem, energize the Federal 
Government into playing a greater role, and improve local, 
State, and Federal cooperation in the process. More needs to be 
done. No child should have to live with the consequences of 
this preventable disease.
    We will hear from two panels of witnesses. The first panel 
will consist of: Susan Thornfeldt, Director of the Maine Lead 
Action Project; Bruce Lanphear, Associate Professor of 
Pediatrics, Children's Hospital Medical Center, Cincinnati, 
Ohio; and Nick Farr, Executive Director, National Center for 
Lead-Safe Housing.
    On our second panel, we will hear from three local and 
State officials about their efforts to solve the lead-based 
paint problem in their localities.
    We will be asking all the witnesses to discuss, one, the 
nature and extent of lead-based paint poisoning in their 
communities; two, the past and present approaches they have 
been involved in to eliminate lead-based paint poisoning; and 
three, what more needs to be done to make our Nation's housing 
lead-safe.
    But before I call the witnesses forward, let me recognize 
the Ranking Member, Senator Allard of Colorado.
    Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman.
    I would just like to thank you for holding this hearing on 
the hazards of lead-based paint in residential housing. 
Fortunately, Colorado is not at the top of the heap on this 
one. As I understand, your State of Rhode Island is. We have 
about a 3 or 4 percent incident that occurs in children, which 
ranks us just past the median.
    Although we have a relatively low percentage compared to 
other States, and especially Rhode Island and some other places 
here on the East Coast, this is still one of those issues that 
we are happy to be doing something about. This is an issue of 
great concern in my State, even though we have that low 
percentage. It will continue to be until significant lead-based 
hazards are under control.
    I am looking forward to a constructive hearing that focuses 
on reducing the risk to children of lead-based paint in 
housing.
    According to the Centers for Disease Control and 
Prevention, childhood lead poisoning is the most common 
environmental disease of young children. Even low levels of 
lead contamination have been linked to the impairment of mental 
development and muscle control, hearing and emotional 
development.
    Research has shown that the most common source of lead 
exposure for children today is lead paint in older housing and 
the contaminated dust and soil that it generates. We have come 
a long way in reducing the hazard to children from lead. Blood 
lead levels in children have dropped dramatically since the 
1950's. But this does not mean we have conquered the problem.
    The Department of Housing and Urban Development estimates 
that three-quarters of pre-1980 housing units contain some 
lead-based paint. This paint becomes hazardous when it is not 
properly maintained, when children come into contact with chips 
of paint and the dust it creates.
    We are here today to hear about how lead-based paint 
hazards affect exposed children and how State and local 
governments are controlling this problem in their housing 
stock. A lot of local governments have implemented programs and 
solutions that focus on abatement of flaking or decaying paint, 
training for homeowners and painters during remodeling 
projects, blood testing and awareness campaigns, and incentives 
for landlords to better maintain their property.
    Colorado, for example, issued regulations to address lead-
based paint hazards in pre-1978 housing and child-occupied 
facilities.
    The Department of Public Health regulates risk assessment, 
inspection, and the control or elimination of hazards in its 
targeted housing. The Department also dedicates about half of 
its effort to outreach and education of Colorado residents and 
property owners on identifying and controlling lead hazards. 
Efforts like these 
deserve our support and immediate implementation.
    I would like to thank all of our witnesses for being here 
today and I look forward to hearing from all of you on how we 
can best address this problem at the Federal level. I would 
like to extend a special welcome to Richard Fatur with the 
Colorado Department of Public Health and the Environment. I am 
glad you are here to share with us Colorado's progress in 
addressing this issue.
    Again, I would like to thank my colleague for holding this 
hearing and I look forward to working with him on this matter.
    Senator Reed. Thank you very much, Senator Allard.
    We have been joined by the Chairman of the Full Committee, 
Senator Sarbanes. Senator, would you like to make an opening 
statement?

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Mr. Chairman, I want to thank you for 
holding this hearing on lead-based paint poisoning. This is 
clearly a very important topic. Over a million children across 
the country experience lead poisoning.
    We have a serious problem in my own State, particularly in 
Baltimore City, which ranks tenth amongst counties and cities 
with high lead hazards.
    Minority and low-income children are disproportionately 
affected by this serious condition and it is really a solvable 
problem.
    Mr. Chairman, I want to commend you for the panel that you 
have assembled here today to try to ensure that our children 
live in lead-safe housing. We will be hearing about actions 
taken at the State and local level to address lead hazards in a 
number of communities. Obviously, there is a role for the 
Federal Government to play as well and I look forward to 
working with you and Senator Allard in that endeavor.
    We have put in a number of programs in Maryland to try to 
address these issues such as the Maryland Lead Screening 
Program, to help raise awareness about lead hazards. In 1996, 
the Maryland legislature passed legislation requiring landlords 
to maintain their housing units so that the housing remains 
safe. It requires them to take steps to reduce lead hazards 
already existing. As always, when you enact legislation, you 
also have a follow-on enforcement problem and we need to be 
paying attention to that.
    One of your witnesses, Nick Farr, Executive Director of the 

National Center for Lead-Safe Housing, which is a nonprofit 
organization based in our State, is to be commended for their 
work with respect to providing safe housing for children.
    Mr. Chairman, although I will not be able to stay for the 
whole hearing, I will stay and give support as long as I can.
    Senator Reed. Thank you very much, Senator Sarbanes.
    Senator Allard. Mr. Chairman.
    Senator Reed. Senator Allard.
    Senator Allard. I would just like to ask your indulgence 
and the indulgence from those on the panel. At 3 p.m., I have a 
mark-up of a piece of legislation in another committee. In 
other words, we are adopting amendments and what not, and I 
will have to dismiss myself. I apologize that I will not be 
here for the full hearing.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator.
    Let me recognize and introduce the first panel.
    Susan Thornfeldt is the mother of two children poisoned by 
lead. She is the founder and Executive Director of the Maine 
Lead Action Project in Portland, Maine. She also serves on the 
board of the Alliance to End Childhood Lead Poisoning.
    Dr. Bruce Lanphear is Associate Professor of Pediatrics and 
Director of the Children's Environmental Health Center at the 
Children's Hospital Medical Center and the University of 
Cincinnati, 
in Cincinnati, Ohio. He is also Deputy Editor of Public Health 
Reports--the journal of the U.S. Public Health Service--and was 

recently appointed as a member of the expert advisory board on 
Children's Health and the Environment in North America. He con-
ducts research in environmental health and is a widely-
recognized 
expert in residential factors linked with lead exposure, 
asthma, 
and injuries.
    Nick Farr is the Executive Director of the National Center 
for Lead-Safe Housing. Mr. Farr has previously served as Vice 
President of the Enterprise Foundation, Executive Vice 
President of the North American Mortgage Company, Executive 
Director of the California Housing Finance Agency, General 
Deputy Assistant 
Secretary for Community Planning and Development at HUD, Pro-
fessor of Law at the NYU Law Center, and Director of the Model 
Cities Administration.

    Now before you all begin, I would first like to thank you 
for your written testimony, which has been shared with Members 
of the Subcommittee, and I would ask you to stick to the 5 
minute time limit, if you could. We have the full text of your 
testimony and that is now part of the record.

    Ms. Thornfeldt.

                 STATEMENT OF SUSAN THORNFELDT

              DIRECTOR, MAINE LEAD ACTION PROJECT

    Ms. Thornfeldt. Thank you.
    Good afternoon and I want to thank you for your efforts to 
highlight lead poisoning and for giving me the opportunity to 
share our family's story. I am the mother of a little boy named 
Sam, who was poisoned by lead. As Senator Reed has noted, I am 
the Director of the Maine Lead Action Project and I also serve 
on the Board of the Alliance To End Childhood Lead Poisoning.
    Lead poisoning entered our lives soon after we purchased 
our 170-year-old home. It is a late 19th Century colonial, 
nestled in 
a nice residential, coastal neighborhood in Portland, Maine. My 

husband and I chose an older home, like many of us do, for its 
charm, beautifully detailed woodwork, and its stately 
graciousness. 
As eager, first-time homeowners, we soon began our much-needed 
renovations.
    What we did not know, until our child became inexplicably 
ill, was that our home contained lead. We were unaware of the 
dangers, and the serious, permanent health effects lead could 
have on our children.
    I first became acquainted with the topic of lead poisoning 
in an article from a very popular parenting book; as a first-
time mother and voracious reader, I absorbed every bit of 
information about child development. I came across a half page 
devoted to childhood lead poisoning, which in a nutshell, 
explained the rapid rate a child's brain grows from birth to 
age 6 and the irreparable, cognitive damage lead could do to 
children. I did not have to read another word. At my urging, my 
son's pediatrician did a lead screen on Sammy and delivered the 
news that, he indeed had elevated blood lead levels. He was 
screened much more frequently from 6 months to 2 years old, his 
levels climbing higher with each visit. This came as a total 
surprise to my husband and me because we were now religiously 
cleaning and washing Sam's hands and toys much more often. This 
was, quite honestly, the only preventative advice we had 
received.
    I am sure many other parents of lead-poisoned children have 
heard their own public health department imply, ``Go home, feed 
your children better, watch them more carefully, clean your 
house, and by the way . . . good luck.'' Though it may not be 
said outright, this is the message that is clearly being 
delivered. Why are we, as parents, made to feel that we are 
somehow responsible for the poisoning of our children? Does 
childhood lead poisoning end with the distribution of brightly 
colored brochures, frequent hand washings, and ABC's of good 
nutrition? These are the Band-Aids covering up a much bigger 
problem--toxic paint lurking in our country's housing.
    Sadly, Sam was diagnosed with lead poisoning soon after his 

second birthday. As a parent, it is heartbreaking knowing that 
the home you provided for your child was slowly poisoning him 
everyday. There is no deeper feeling of sadness, frustration, 
and 
helplessness.
    In order to avoid poisoning Sam once again, and endangering 
our daughter, Alexandra, who had just started crawling, we 
chose to move out while lead abatement was performed on our 
home. I cannot emphasize enough the challenge of coping with 
the enormous stress of caring for a sick child, relocating, and 
dealing with the 
financial burden--at times it was unbearable. Looking back, I 
am not quite sure how we pulled it off. But I now have to 
believe the worst is behind us, and Sammy will have a happy 
childhood, and normal, productive school years. But for many 
children, lead poisoning prevents them from succeeding in 
school or in life.
    Though many other stories may begin much differently than 
mine--maybe in an apartment in Chicago, on a farm in rural 
Louisiana or in a home on the West Coast--many of them share a 
common theme: Our children served as the lead detectors 
alerting 
us to the hazards of living in a home contaminated with lead-
based paint. If there is one thing that I have learned from my 
experiences, it is that the system set up to protect our 
children from lead poisoning is, sadly, reactionary.
    Screening children for lead in their blood is important to 
finding and treating sick children. But allowing children to 
serve as lead detectors is no solution to the environmental 
disease of lead poisoning--it is an immoral approach. In fact, 
health departments' preoccupation with screening children often 
obscures the need for and deflects resources from finding and 
fixing hazardous houses.
    We can make sure that what happened to my children does not 
happen to other children. But, to do so, we have to confront 
the reality of lead poisoning--this is a disease that a healthy 
child catches from a house.
    There is only one real way to protect children from lead 
poisoning--and that is to prevent and control hazards in 
children's homes. We need to find the homes with lead-based 
paint hazards and control those hazards before a child is 
needlessly exposed.
    As our family's experience proves, educating parents about 
hand-washing, and nutrition and hygiene will not solve this 
problem. Children do not need to be told to eat their 
vegetables and wash their hands--they need homes that are safe 
from lead-based paint hazards. What is politely called ``parent 
education'' really amounts to passing the buck. Of course, 
nutrition, hygiene, and housekeeping are beneficial, but the 
fact that my home was dangerous--and millions of homes across 
the country are still dangerous today to children, not because 
of any lapse in parenting, but because the lead paint industry 
cared more about making money than safety. Despite the 
overwhelming evidence of the danger of its product and the 
availability of safer alternatives, the lead paint 
manufacturers knowingly marketed a poisonous product for 
decades.
    To add insult to the injury they caused, the paint industry 
is a big proponent of ``parent education.'' Benjamin Moore 
congratulates itself on helping communities hold ``fun and 
educational'' events about lead poisoning for families. Well, I 
want Benjamin Moore to know that lead poisoning is no fun.
    Children and families have paid the price for the 
industry's misconduct. Taxpayers have paid the price for the 
industry's misconduct--hundreds of millions of local, State, 
and Federal dollars. As a parent and taxpayer, I am tired of 
paying. I want to know when the companies that caused this 
problem are going to help pay for solving this problem.
    We as a country can protect children from lead poisoning. 
We know what to do, what solutions work. We have set the 
national goal of ending this disease by 2010. But solutions 
cost money. It is time for the lead industry to pay its fair 
share. And it is time that everyone--communities, Government, 
and industry--do the job right to eliminate lead poisoning once 
and for all.
    Thank you.
    Senator Reed. Thank you very much, Ms. Thornfeldt.
    Dr. Lanphear.

            STATEMENT OF BRUCE P. LANPHEAR, MD, MPH

               ASSOCIATE PROFESSOR OF PEDIATRICS

               CHILDREN'S HOSPITAL MEDICAL CENTER

                        CINCINNATI, OHIO

    Dr. Lanphear. I would like to thank you all for the 
opportunity to share some of the research and thoughts on 
primary prevention of lead poisoning.
    Lead poisoning, like other diseases, has evolved through 
three stages--recognition of an acute disease, elucidating the 
disease spectrum and mechanisms of exposure, and finally, 
prevention and control of exposure.
    What is unique about lead poisoning, or contrasted with 
some other diseases, is that its evolution was hampered or 
obstructed at each stage by industry efforts.
    Despite the dramatic declines that we have seen in 
children's blood lead levels over the past two decades, 
subclinical lead toxicity remains a major public health 
problem. In many parts of the country, it remains epidemic, 
particularly in older cities, in the northeast, the midwest, 
the southeast, but even in special communities or smelter 
communities in Colorado and others in the west.
    It is a systemic toxicant associated with numerous adverse 
conditions and diseases in humans. The cognitive deficits that 
we so often think about are just the tip of the iceberg.
    There is no magic medical bullet or therapy. The evidence 
has come out suggesting that the adverse consequences of lead 
exposure are persistent and irreversible.
    It is a major environmental justice problem particularly 
affecting children of color and leading to disparities in 
school problems and evidence now suggests delinquency.
    It has been long known that lead is a systemic toxicant. In 
the 1970's, it was estimated that a one-microgram per deciliter 
reduction in blood lead levels in adults would lead to 635,000 
fewer persons in the United States with higher blood pressure, 
3,200 fewer heart attacks every year, 1,300 fewer strokes every 
year, 3,300 fewer deaths every year. There is also increasing 
and compelling information that lead is neurotoxic at blood 
lead levels less than 10 micrograms per deciliter.
    Children, for example, who have a blood lead level of 10 
micro-
grams per deciliter, have been shown to have a 15 point deficit 
linked to lead exposure. We can find evidence down below 5 
micrograms per deciliter. So the million children that have 
been discussed today should be multiplied many-fold. It is 
millions and millions of children.
    Moreover, there appears to be greater decrements in reading 
and intelligence at lower blood lead levels. So, for example, 
across a range of blood lead levels. In our Rochester cohort, 
we found about a 5.7 reduction in IQ scores for each 10 
microgram per deciliter. But when we limited that to children 
with blood lead levels less than 10, there was an 11 point drop 
for the initial 10 micrograms per deciliter.
    These effects are not subtle. Indeed, what they suggest is 
that the vast majority of children who suffer from the adverse 
consequences of lead exposure never attain blood lead levels 
greater than 10 micrograms per deciliter. But this should not 
surprise us.
    Contemporary children, despite the rather dramatic decline, 
still have increased blood lead levels 10 to 100 times that of 
pre-
industrial humans.
    There is also increasing evidence that lead is linked with 
behavioral problems and delinquency. Indeed, there is some 
suggestion, and the science is bearing this out, that the 
dramatic increase in crime in the last century may be due not 
simply to social decay, but, rather, widespread exposure to a 
potent neurotoxicant. Well, what do we do about this?
    As we have already heard, in the past, most of our response 
has been reactionary. We have relied on children as biological 
indicators of substandard housing. Unfortunately, this does not 
work if the adverse effects of lead exposure are persistent and 
irreversible.
    What type of steps should we take?
    First, as many cities and States have done, we can begin to 
identify before a child is unduly exposed neighborhoods and 
housing that contain lead hazards. We can conduct targeted 
screening of housing with wipe tests, what I think virtually 
every advocate and public official would recognize as the 
single most important tool.
    In this case, screening children becomes a safety net. It 
does not become our primary effort to prevent childhood lead 
exposure.
    While there is considerable evidence that lead abatement 
and other kinds of lead hazard controls are effective for 
children at higher blood lead levels, blood leads of 25 to 30 
micrograms, there is still some uncertainty about their 
effectiveness at lower blood lead levels and that work needs to 
be done.
    Finally, lead hazards are just one of many residential 
hazards that children suffer from today. Sixty percent of all 
fatal injuries in children occur in housing. Over 50 percent of 
nonfatal injuries occur in housing. Over 40 percent of doctor-
diagnosed asthma can be attributed to housing exposures.
    Until we begin to address residential hazards like lead 
poisoning and others in a more comprehensive way, we won't 
address the dramatic social disparities that we see, nor will 
we protect children's health.
    And so, I would suggest that there needs to be a National 
Institute for Safe Housing to address lead poisoning and other 
residential hazards, because until then, until effective 
standards for the domestic environment are devised, it is 
likely that children will continue to be employed as biological 
indicators of substandard housing.
    Thank you.
    Senator Reed. Thank you, Dr. Lanphear.
    Before I recognize Mr. Farr, we have been joined by Senator 
Dodd. Senator, would you like to make an opening comment?

            STATEMENT OF SENATOR CHRISTOPHER J. DODD

    Senator Dodd. Mr. Chairman, thank you for holding this very 
worthwhile hearing. I want to thank our witnesses, and I 
appreciated the chance to hear Dr. Lanphear. I could not agree 
with you more about your analysis and the potential harm, or 
the known harms caused by lead paint and the very real 
connections based on some very strong scientific evidence of 
behavioral problems that are linked to potential lead paint 
issues.
    I think this is very helpful and I think the idea of having 
a broader perspective on it is really tremendously 
constructive.
    I spent a day in my State last winter on asthma and housing 
issues. Connecticut has one of the highest rates of it, even 
though we have a very affluent State and it is directly related 
to the increased number of children that have asthma, directly 
relates to poor areas in my State.
    There is no question but the condition of housing and the 
explosion of asthma in children is linked.
    Mr. Chairman, I am going to apologize in advance about not 
being able to stay. Sue Heller is one witness you are going to 
hear from, and I suspect that every one of the people at the 
table know about Sue.
    First of all, she is from Rhode Island. She has a Rhode 
Island background, from Brown University.
    Senator Reed. That explains it.
    [Laughter.]
    Senator Dodd. Well, you are the Chairman. I was going to 
say that. Of course, I was going to say that.
    But you did not keep a hold of her because she is in 
Connecticut now, and has done a terrific job in Manchester and 
really has a wonderful national reputation for her work in the 
lead paint area and the lead-based paint poisoning issues.
    Again, you will hear from her. You will know what I am 
talking about. We have had the wonderful pleasure of working 
with her for a long time. She has made a huge difference, and 
the people she works with in a community, an example nationally 
of what can happen when local government, private-sector 
people, contractors and others, all are working on the same 
page to deal with a problem of this magnitude and prove that 6 
percent of the kids were affected by it, poor kids, as much as 
10 percent. Those are pretty high numbers, in a relatively 
affluent community in my State. But Sue's leadership on this 
has been tremendous and she will be a very valuable 
contribution to the information that we will be collecting 
today.
    I apologize to her in advance for not being here, but I get 
to hear Sue all the time, so I know how you feel about this. 
And again, 
Mr. Chairman, I thank you for holding this hearing.
    Senator Reed. Thank you, Senator. Thank you very much.
    Mr. Farr.

           STATEMENT OF NICK FARR, EXECUTIVE DIRECTOR

             NATIONAL CENTER FOR LEAD-SAFE HOUSING

    Mr. Farr. I am the Executive Director of the National 
Center for Lead-Safe Housing. We are a national research 
organization. We have evaluated the local lead hazard control 
programs in about 
30 places, including Rhode Island, Manchester, Connecticut, and 

Baltimore, Maryland. We are pretty familiar with what is going 
on locally.
    Mr. Chairman, you said in the beginning, and Dr. Lanphear 
certainly reinforced it, that the only moral and effective way 
to deal with childhood lead poisoning is to prevent children 
from being exposed to lead in the first place. It does no good, 
or it does very little good, to get them after they are already 
lead-poisoned. So the issue that I want to talk about is the 
extent of the housing problem in America where children are 
exposed.
    As has been indicated, most children with elevated blood 
lead levels are exposed to lead because they live in older, 
poorly-maintained housing containing lead-based paint, which 
means virtually all housing built before 1960, and much housing 
built after that.
    According to the recently completed HUD national survey of 
lead and allergens in housing, some 38 million homes in the 
United States have lead-based paint somewhere in the building. 
Over 25 million homes have significant lead-based paint 
hazards.
    Lead-based paint hazards include flaking or peeling lead-
based paint, lead-based paint on friction or impact surfaces, 
such as windows and doors, lead-based paint on chewable 
surfaces, such as window sills, which children can reach, and, 
most importantly, 
excessive levels of lead in dust on floors or window sills and 
lead-
contaminated soil.
    The greatest risk of lead poisoning occurs in older housing 
units that contain lead hazards that either are or will be 
occupied by low-income families with children under the age of 
six.
    Almost 14 million housing units are occupied by low-income 
families. While only 1.6 million homes with lead-based hazards 
are presently occupied by low-income families with children 
under six, it must be recognized that most low-income families 
move frequently, particularly those living in rental housing 
that are most likely to be in poor condition due to lack of 
maintenance. So it is fair to estimate that the number of lead-
hazardous housing units in which low-income families with young 
children now live or are likely to live in the near future, 
could well exceed 3 or 4 million houses. And those numbers are 
based on the present standards of the hazard of lead in 
household dust.
    If Dr. Lanphear is correct that lead at much lower levels 
than the present standard actually constitutes a hazard, and 
our research reinforces his position on this, then the number 
of hazardous houses in the country would be many, many more 
times than I have just indicated.
    So, we are talking about many millions of housing units.
    The Congress in 1992 adopted Title X of the Housing and 
Community Development Act of 1992 and it established the 
present framework for the Nation's effort to end childhood lead 
poisoning. Title X importantly shifted the emphasis from 
waiting until a child is poisoned to trying to deal with lead 
hazards up front and preventing children from being poisoned in 
the first place.
    Two of the important things that it did was: First, to 
direct HUD to adopt regulations governing its large Community 
Development Block Grant, HOME, and other rehabilitation 
programs to require that reasonable steps be made in those 
Federally-assisted housing to make houses lead-safe; and, 
second, Congress established the Lead Hazard Control Grant 
Program to fund lead hazard control work in privately-owned, 
low-income housing. And privately-owned, low-income housing is 
where the problem really exists.
    Since 1990, the number of housing units with lead-based 
paint has been reduced and these reductions can be expected to 
continue. But the percentage of housing units with deteriorated 
lead-based paint has actually increased slightly from 19 to 22 
percent, reflecting the continuing aging of housing and the too 
commonly inadequate maintenance of housing occupied by low-
income families.
    As a direct result of Title X, as many as 1\1/2\ million 
older, Federally-assisted housing may be made lead-safe through 
HUD-funded rehabilitation over the next 10 years, if the 
contractors follow lead-safe work practices and do not cause 
more harm than they do good. And city and State recipients of 
HUD's lead-hazard control grants are controlling lead hazards 
in over 7,000 of the most at-risk housing units every year.
    The cost of lead hazard control treatments obviously varies 
from one housing unit to another, depending on the size and 
condition of the unit, the type of unit, and the lead hazard 
control strategy selected. It ranges from about $2,000 a 
housing unit up to $9,000 or $10,000 a unit for deteriorated 
housing with substantial lead hazards.
    HUD estimates that the incremental cost--that is, above 
regular rehabilitation costs--range from about $2,500 for a 
house that is in not too bad a condition, to $9,000 for 
abatement of hazards in housing in poor condition.
    As a practical matter, neither market forces nor the 
present Federal programs are dealing with the most badly 
contaminated housing where the children are most at risk of 
becoming poisoned. These are housing units in which two or 
three or more children become lead-poisoned over the years as a 
succession of families move in and out of that housing.
    For example, we have a map which was developed by Brown 
University of the housing in Providence where at least two, 
sometimes three, sometimes four kids have been poisoned over 
the last 5 years. So it is a persistent problem.
    Thus, while progress is being made, at the present rate, it 
will take at least several generations to make all housing 
lead-safe for our Nation's children. The Nation will miss the 
goal cited by Ms. Thornfeldt by the Department of Health and 
Human Services of eliminating childhood lead-poisoning by 2010. 
We are going to miss that by a mile.
    So here is my prescription of what can be done, to 
complement what Dr. Lanphear said. First of all, we should make 
sure that the new HUD lead regulation is fully implemented. 
That deals with housing which is Federally-assisted.
    Second, EPA should enact regulations to establish lead-safe 
renovation and maintenance practices as the national norm, as 
Title X almost 10 years ago directed the EPA to do.
    Third, rehabilitation of older inner-city housing should be 
a national priority. Mostly, we are talking about using HUD 
block grant and HOME funds for that purpose.
    Fourth, we should expand environmental testing, as 
distinguished from testing of children, of older properties in 
at-risk neighborhoods so we know where the work should be done.
    Fifth, we should demolish obsolete and uneconomic 
properties and provide safe replacement housing for the 
families that live in those properties.
    And finally, we should make certain that no housing like 
the housing in Providence which I referred to, poisons children 
once, twice, three or four times.
    As a practical matter, HUD's Lead Hazard Control Grant 
Program is the only realistic source of financing at this time 
for controlling hazards in the older, low-rent, poorly-
maintained housing where children are most at risk.
    Private owners are unwilling or unable to make those 
housing units lead-safe because the cost of lead-hazard control 
could never be recouped by the property owners. In some cases, 
the cost even exceeds the market value of the housing. Cities 
have other needs and priorities for HUD's Community Development 
Block Grant and HOME funds and may be reluctant to condemn 
units in the already dwindling stock of affordable housing for 
fear of increasing homelessness.
    For better or for worse, Federal funding, mostly for HUD's 
Lead Hazard Control Grant Program, is the only realistic way at 
the present time to deal with the worst housing where children 
are most likely to be poisoned.
    In conclusion, childhood lead poisoning will only end when 
the Nation changes its priorities and recognizes childhood lead 
poison-
ing as an epidemic that must be broadly addressed.
    For starters, Congress should sharply increase 
appropriations for lead hazard control now. At present, the 
only effective program is HUD's Lead Hazard Control Grant 
Program. The Center estimates that the annual appropriations 
for that program must be increased to $400 or $500 million a 
year if we are to prevent children from being poisoned in 
generation after generation, and to prevent children who are 
now failing from school to lead productive lives.
    Thank you.
    Senator Reed. Thank you very much, Mr. Farr.
    Thank you all for your testimony today.
    Let me begin with Ms. Thornfeldt.
    You have a unique perspective as a mother of a child who 
has been poisoned by exposure to lead. Can you describe 
essentially the impact it has had on your son and your family? 
And by the way, how is he doing?
    Ms. Thornfeldt. Sammy is now 6 years old and he just 
started kindergarten in September. So, he has been into the 
formal school system for about 2 months now. We are not quite 
sure how well he is going to do. We have high hopes for him and 
we are going to do the best we can with what we can do.
    It has impacted our family greatly. As I noted in my 
testimony, the enormous stress of dealing with a sick child, 
the relocation issues, the lead abatement, and the financial 
strain on our family, we are still recovering from, and this 
was 4 years ago. So the toll has definitely been stressful.
    Senator Reed. And in your work with your colleagues in 
Maine, you see this in many different perspectives. I think 
that your home was an older home that you renovated.
    Ms. Thornfeldt. Yes.
    Senator Reed. But as Mr. Farr and Dr. Lanphear spoke, there 
are many lower-income rental units that, are not renovations. 
It just exists that way. Do you find that in Maine?
    Ms. Thornfeldt. No, we do not. Maine has the highest 
homeownership rate in the Nation, and we are very proud of 
that. So 60 percent of all of the childhood lead poisonings in 
our State are as a result from homeowners renovating and 
poisoning their own children. In some sort of way, the guilt is 
pretty tough on parents to actually go ahead and move forward 
with those renovations and ending up poisoning a child 
yourself.
    Senator Reed. Thank you.
    Now, Dr. Lanphear, in your testimony, you indicated that if 
we could spend about $450 million, as Mr. Farr suggested, that 
we could save about $1.5 billion, or let me say, a considerable 
multiple. How would we save this? Could you outline it?
    Mr. Lanphear. Well, that is actually a low estimate because 
it does not account for other potential hazards or outcomes 
from lead exposure, such as delinquency, such as tooth decay 
and oral health problems, such as cardiovascular disease.
    Most of the cost/benefit analyses that have been done so 
far have really focused on cognitive deficits as their major 
outcome.
    Moreover, they focused on an estimate from children who 
only 20 years ago had blood levels that were higher. And as I 
pointed out, the decrement in reading or in IQ for children at 
lower blood levels is much greater.
    And so, the lower estimate that was used in previous cost/
benefit analysis will underestimate any benefit that will come 
from this. So it is cost beneficial.
    Senator Reed. The scientific information about the impact 
of low levels of lead exposure, what effect should that have on 
our screening and our treatment approaches?
    Dr. Lanphear. Well, I think the first thing is, as you have 
heard from across the panel here, that it really should push us 
to be focusing on identifying the hazards in housing before a 
child is unduly exposed. That could happen at the time that 
somebody buys a home. Certainly after any renovation, a dust 
wipe could be used. It could be as a part of any Federal 
subsidy for housing part of a requirement, or for Medicaid-
eligible children.
    And so, unless we change the trigger for action from a 
child to the source, in this case, housing, we are never really 
going to shift to prevent undue lead exposure in the first 
place. That has to be the key to shifting our efforts.
    But I would also point out right now that the EPA standard 
for residential lead hazards is not adequate to protect 
children. I think another aspect, and this is in the written 
testimony, that that needs to be looked at carefully because it 
provides an illusion of safety to families who are doing the 
renovation work.
    Senator Reed. Now, you seem to suggest in your testimony, 
Dr. Lanphear, that we are just responding to children that have 
very overt symptoms of high levels of lead. But, yet, the 
damage is done and perhaps even not really noticed at much 
lower levels of lead. Is that a fair statement? I do not want 
to be imprecise.
    Dr. Lanphear. I would not say most of the children, until 
you have blood lead levels of 50 or 60, there is no obvious 
symptoms. But, rather, you have to look at hundreds of children 
compared to one another before you see it in many cases, 
although you clearly will have mothers tell you, before a child 
was exposed, they were a nice, docile, friendly kid. They are 
exposed and all of a sudden, they have temper tantrums, 
behavior problems. And of course, this happens all around the 
time of the terrible 2's. So it is very difficult to tease 
apart lead as a neurotoxin versus a developing child.
    At lower levels, it is more subtle and you can only see it 
when you look at populations of children.
    Senator Reed. But you notice in those lower levels, though, 
significant losses in cognitive processes.
    Dr. Lanphear. That is right. In reading, in math, certainly 
in intelligence. Some people have estimated that for every one 
IQ point lost, a child's lifetime earnings will be reduced by 
about $12,000. So that is where some of the cost/benefit comes 
in.
    Senator Reed. Thank you, Doctor.
    Mr. Farr, in your testimony, you said that the HUD Lead 
Hazard Control Program is the only funding available, 
effectively. Do you believe that, in addition to increasing 
funding, we have to introduce new Federal programs, or would 
our best approach simply be to fund robustly at the $450 
million level, the existing program?
    Mr. Farr. Well, right now, I would think that would be the 
most effective way to move. I mentioned some other things in my 
testimony and in my written statement that I think would make a 
difference as well. I would just add sort of in answer to one 
of your questions to Dr. Lanphear.
    Senator Reed. Yes.
    Mr. Farr. In Maryland, the statute which Senator Sarbanes 
referred to requires all owners of rental property built before 
1950, whenever the property turns over, which is frequently 
with that kind of housing, to take certain steps to reduce lead 
hazards. I happen to have drafted those steps, so I think they 
are pretty good.
    It could use a little better enforcement, frankly, if the 
law is going to be truly effective. But we also, as you 
probably know, have helped draft and have pushed for 
introduction of a similar statute in the State of Rhode Island, 
and it almost passed last time, but it didn't quite.
    There are things that local governments can do with 
encouragement from hearings like this to require owners, 
particularly of older rental property, to take certain cost-
effective steps--we are not asking them to spend hundreds of 
thousands of dollars--which will make the houses considerably 
safer.
    And the research we have done, some of it with Dr. 
Lanphear, indicates that what we call interim control 
treatments, which can be done in the $2,500 to $5,000 range, 
are effective in bringing the levels of lead and dust down and 
keeping them down over a period of time.
    And in Rhode Island, we found that you could bring dust 
lead levels on floors down to 10 micrograms per square foot or 
below; and they stayed that way for 3 years, without undue 
expenditures. That kind of local effort would make a lot of 
difference, and you do not need a lot of Federal money to 
accomplish that.
    The reality is the owners of the really bad housing are 
going to pay no attention to a law like that because they 
cannot get their money back. So, they just abandon the houses, 
which you do not need very much, either, in creating 
homelessness. For the worst housing, where the children are 
most at risk, I think the best shot is to increase the 
appropriation to that program.
    Senator Reed. It seems that, running throughout all your 
testimony, is this notion of getting away from simply screening 
children and then treating them individually. But taking, right 
or wrong, a more public health approach, which is identifying 
the source of the contagion, which is the worst offenders. You 
mentioned and you have identified a house in Providence that 
had several successive families----
    Mr. Farr. A whole series of houses, hundreds of houses.
    Senator Reed. And that by identifying those houses, direct 
Federal/State resources to remediation and then work your way 
down the list of the worst- to next-worse, all the way down. Is 
that being done? Are you seeing that?
    Mr. Farr. It is being done in some places. It is what we 
call targeting, and it is being done. And certainly, the HUD 
program strongly encourages people to do that. It is a 
competitive program and you only get money if you are focusing 
where the need is.
    In Rhode Island, for example, the city of Providence has 
floated some bonds for a variety of rehabilitation projects and 
it has earmarked some of that money for lead hazard control, 
which is 
another good example of what a State and local government can 
do to supplement the Federal program. Not every State cares 
about this as much as Rhode Island does.
    Senator Reed. Well, one of our goals is to make every State 
care about this as much as Rhode Island.
    Dr. Lanphear, do you have a comment about a new paradigm 
when it comes to looking at the way we deal with the issue of 
lead exposure?
    Dr. Lanphear. Yes. I think you hit it as a public health 
approach rather than this reactionary approach. Going back to 
this idea of how we think about housing, residential hazards 
are analogous to occupational hazards of 30 years ago.
    We just started to recognize occupational hazards and 
provide an infrastructure to protect the worker. We have 
virtually nothing in place to protect where children work, if 
you will, in the home environment. And where people have the 
means to provide for their children, and they know how and are 
given the information, then they can do that.
    There are a lot of situations, whether it is a homeowner 
trying to renovate, or it is families who live in rental 
property that they cannot control, where their children 
confront hazards every day. It is a neglected public health 
problem.
    To the extent that we can begin to think about housing as a 
public health effort, come out with an institute, if you will, 
that could oversee other agencies' efforts to protect children 
in housing, review the scientific evidence and come out with 
recommendations for standards that State and local agencies 
could adopt, I think we would go a long way to protect 
children. And without that, we are not going to go a long way 
in protecting children's health.
    Senator Reed. Thank you, Dr. Lanphear.
    Ms. Thornfeldt, finally, you have been very active in 
Maine. Are there any local initiatives that you feel are 
particularly worthwhile that we could emulate across the 
country?
    Ms. Thornfeldt. Well, Maine is not as progressive as Rhode 
Island or Massachusetts at this point right now. The State just 
got its first HUD grant 3 years ago and the city of Portland 
just had their second HUD grant renewed. So, we are making 
strides. Hopefully, there will be a bill in the next 
legislative session to address universal screening in the State 
of Maine. We are taking those steps to move forward.
    But you posed the question to Mr. Farr and Dr. Lanphear. 
I think when children and families have paid the price for lead 

poisoning for all these decades, and now we are talking about 
taxpayers still pulling the toll here of funding HUD for their 
lead hazard control program, and I think we are all mindful of 
the concept of polluter pays. And I think we need to start 
thinking about steps to holding the lead paint manufacturers to 
fixing some of our older housing stock here.
    Senator Reed. Thank you very much.
    Thank you all for your testimony very much.
    I would like to now call forward the second panel, if they 
could please take their places.
    [Pause.]
    Let me now introduce the second panel. The first witness on 
the panel is Attorney General Sheldon Whitehouse from my own 
State of Rhode Island. Elected in 1998, Sheldon has focused his 
efforts on health care, environmental enforcement, crime 
prevention, and punishing armed criminals. Sheldon previously 
served as U.S. Attorney for Rhode Island. Before that, his 
career in Government included positions as Director of Business 
Regulation and Executive Counsel and Policy Director to 
Governor Bruce Sundland.
    Next, we are joined by Mr. Rick Fatur. Currently, Mr. Fatur 
is developing Colorado's lead-based paint program for the 
Colorado Department of Public Health and the Environment. He 
started the Colorado Lead Coalition and has worked in the 
environmental field for over 25 years as a chemist, 
environmental consultant, and instructor for asbestos and lead-
based paint classes.
    Finally, we are joined by Sue Heller, who has previously 
been introduced by Senator Dodd, with the highest praise. She 
currently administers the Manchester Lead Abatement Project in 
Manchester, Connecticut, supervising abatement of over 110 
dwelling units from outreach through construction of these 
units. Other experiences include directing the $225 million New 
York City Community Development Block Grant and managing 
public-private sector projects for the mayor's office.
    And we look forward to all of your testimony. We will begin 
with Attorney General Whitehouse.
    Mr. Whitehouse, welcome.

                STATEMENT OF SHELDON WHITEHOUSE

         ATTORNEY GENERAL FOR THE STATE OF RHODE ISLAND

    Mr. Whitehouse. Thank you, Mr. Chairman. It is very nice to 

see you here.
    Rhode Island, as you know, has a serious lead paint 
problem. And I will begin my testimony by describing the 
insidious nature of lead paint poisoning, which provides no 
particular telltales, creates no symptoms ordinarily, and is 
therefore a particularly dangerous and difficult poison to 
locate, particularly in an environment in which there has been 
substantial misleading discussion about the nature of lead 
poisoning, suggesting that you have to eat lead paint like 
potato chips in order to be poisoned.
    Families are often not sufficiently enough on the alert to 
know that their children are being lead-poisoned. And it is 
certainly not a low-income problem entirely. People who are of 
some considerable affluence and who take pride in the 
maintenance of their homes, particularly during renovation 
periods, can find that their own children have been lead-
poisoned.
    The Conservation Law Foundation of Massachusetts had 
identified Rhode Island as the lead poison capital of the 
United States and both our Democratic general assembly and our 
Republican governors administration have identified lead as the 
number-one environmental health issue facing Rhode Island's 
children.
    The rate of lead poisoning of our children in Rhode Island 
is 2\1/2\ times the rest of the United States. In Providence, 
it is 4 times higher than the rest of the United States. We 
test the blood of every child entering kindergarten for lead 
poisoning. Every year, on average, more than 2,000 kids 
reporting to kindergarten have elevated blood levels.
    Against this backdrop of a very real and insidious public 
health 
calamity, Rhode Island has been active at the municipal, State 
and Federal levels.
    At the municipal level, the bulk of the response has 
occurred in the city of Providence, our capital city. The 
city's primary focus is on providing lead safe, healthy 
housing, and public education to its residents. Through an 
experienced lead abatement team, through HUD and National Safe 
Houses Corporation grants, and through close enforcement 
coordination with my office and the Department of Health, along 
with aggressive public outreach to children, parents, schools, 
families, realtors, homeowners, elevated blood levels in 
Providence's children have dropped from 38 percent of those 
entering Providence kindergartens in 1998, to 25 percent of 
kindergartners today.
    At the Federal level, we have pursued Federal grants 
through HUD and other agencies and worked with Federal 
officials, primarily HUD, EPA, and the U.S. Attorneys Office. 
Federal polit-
ical leaders such as yourself have shown considerable interest 
and 
vision.
    At the State level, we are addressing lead-poison through a 
variety of agencies and means. Our Department of Health 
conducts the blood testing program I have described. In the 
year 2000, 32,313 children under the age of 6 were tested in 
Rhode Island. Two 
thousand eight hundred four of those children had elevated lead 
levels in their blood. The Department of Health follows up on 
each case where the child's blood level is 20 milligrams per 
deciliter or higher, with home inspections and case management.
    Our Department of Human Services provides funding and care 
for low-income residents who experience lead poisoning and 
require medical treatment. Rhode Island became the first and 
only State to receive permission from the Healthcare Financing 
Administration to use Medicaid funds for replacing or repairing 
windows in homes of lead-poisoned children if landlords or 
tenants satisfied the 
eligibility requirements.
    My department, the Department of Attorney General, is 
involved primarily on the enforcement side. When we become 
aware that a residence contains dangerous levels of lead, 
usually by a referral from the Department of Health, we take 
action to require owners and landlords to abate the lead. 
Landlords are not always willing, so we have repeatedly taken 
them to court and obtained orders, contempt judgments, and 
civil penalties to enforce their obligation to abate. For 
instance, in one case, a judge's contempt order required the 
landlord to pay civil penalties, find and fund alternative 
housing for the tenants, and to immediately abate the lead 
hazards or face raised fines. We have successfully completed 20 
such lawsuits. We have approximately 200 cases in the office in 
process right now, and roughly 100 homes and apartments, 
including the exterior and the soil that surrounds them, have 
successfully been abated or are in the process of abatement.
    Moreover, the Department of Health reports that they find 
an entirely new level of cooperation and compliance from 
landlords when they are given the initial notification now that 
word is out in the landlord community of our enforcement 
strategy.
    We have referred cases for prosecution to the Department of 
Justice, HUD, and the EPA to enforce the Federal requirements 
that landlords and sellers disclose lead hazards to buyers and 
tenants. We hope that the Federal Government will take a more 
active role in prosecuting these cases in the future.
    In addition to recognizing the efforts of municipal, 
Federal, and State government, I should take a moment to 
commend the community organizations that are so active in Rhode 
Island in this area: Health & Education Leadership for 
Providence, the Help Lead Safe Center, the Childhood Lead 
Action Project, Greater Elmwood Neighborhood Services, various 
neighborhood and church organizations, Head Start, the VNA, and 
many nonprofit housing groups.
    Blood, toil, tears and sweat were Winston Churchill's 
exemplars of effort. In Rhode Island, the blood is given by 
infants and small children who must be regularly tested, and in 
some cases, hospitalized, to have their blood chelated. The 
tears are shed by family members who discover, often too late, 
and often despite very reasonable levels of maintenance of 
their homes, that their child has become lead-poisoned. The 
toil and sweat comes from the men and women of these community 
organizations who every day administer to the many needs of 
families facing these uncertainties.
    Everyone in Rhode Island is working to clean up the lead 
paint mess. Municipal government and thus, municipal taxpayers, 
are pitching in. State government through many agencies, and 
thus, State taxpayers, are pitching in. Federal efforts have 
been made through HUD, the EPA, and the Department of Justice. 
Volunteers and staff of community organizations are pitching 
in. Families, of course, bear a terrible share of the burden--
the lead poisoning of their children, the worry and woe of 
mothers and fathers, the displacement of families from their 
homes, even the minor trauma of holding your child as painful 
and frightening procedures are performed to test for lead 
poisoning or to chelate lead out of your child's blood. Even 
landlords and homeowners are pitching in, cleaning up lead 
paint that may have been put on years before they ever bought 
the home.
    Mr. Chairman, there is, only one group not pitching in. And 
that is the lead pigment companies who sold this toxic material 
for decades, profited from it, lied about it, and are now 
trying to evade even the most microscopic share of 
responsibility for cleaning up the mess they helped to create.
    After determining that the pigment companies were prepared 
to do essentially nothing about this problem, I filed a lawsuit 
to determine what the fair share of responsibility of these 
companies is, and to get the companies to contribute that fair 
share to the remedy of this problem.
    The lawsuit was filed on October 12, 1999. The State of 
Rhode Island is represented by myself and by my office, by a 
highly regarded law firm which represented the State with great 
success 
in litigation that you will remember well, arising out of Rhode 

Island's 1991 bank failures, and by a national firm which has 
the depth to withstand the inevitable blizzard of paper 
occasioned by large-scale civil litigation. As Attorney 
General, I am directly involved in this case, guide its 
strategy, and successfully argued the case for the State 
against the motions to dismiss.
    Our allegations fall into three groups. There are equitable 
counts. There is a statutory count under a Rhode Island State 
consumer protection statute. And there are a number of 
traditional tort counts which bear on the properties owned or 
maintained by Rhode Island in its proprietary capacity. For 
example, the public nuisance count would enable the Rhode 
Island Superior Court within its equitable jurisdiction to 
impose a reasonable order allowing more rapid and complete 
abatement of lead paint that the State presently has resources 
to accomplish.
    As the Rhode Island General Assembly has noted, ``Rhode 
Island presently does not have the public nor the private 
resources to handle the total problem.''
    I should point out that a public nuisance lawsuit, when 
brought by a responsible public official to vindicate a public 
harm, is not an ordinary piece of litigation. Its primary 
purpose is not to resolve a dispute between contending private 
parties, but rather to protect the public health, safety and 
welfare. A public nuisance lawsuit is, in some measure, an 
exercise of the police power of the State.
    What remedy do we seek that will relieve Rhode Island 
children of the hazard of lead paint poisoning? Ideally, all 
lead paint needs to be removed from residences where children 
may be exposed. With limited resources, we believe the first 
priorities are: one, to remove lead from friction surfaces such 
as doors and windows; two, to assure that repairs and 
maintenance are done in a way that does not expose residents to 
lead dust; and three, to encapsulate lead surfaces, since it is 
lead's inherent, intrinsic nature to chalk and form poisonous 
dust.
    I will conclude my remarks by observing that I am just a 
small State Attorney General, and this lawsuit has provided me 
my first experience of national level spin. I will not bore you 
here with the description of the various characterizations of 
this lawsuit, characterizations of my motivations, or 
characterizations of the facts of lead paint poisoning. Suffice 
it to say that we wish as quickly as possible to bring this 
case forward, so that we can present the State's case and the 
defendants can present theirs, and a decision can be made not 
on rhetoric, not on spin, but on evidence and facts. We look 
for the outcome of that process to be a fair and sensible order 
requiring the defendants to contribute in a fair and sensible 
way to the clean-up of the mess they made.
    If Rhode Island is to be considered the lead paint capitol 
of the United States, Mr. Chairman, let us also seek to be the 
capitol of lead paint solutions.
    Thank you very much.
    Senator Reed. Thank you very much, Mr. Whitehouse, for your 
testimony, also for your leadership.
    Now let me call on Mr. Fatur.
    Mr. Fatur.

                 STATEMENT OF RICHARD A. FATUR

              ENVIRONMENTAL PROTECTION SPECIALIST

              COLORADO DEPARTMENT OF PUBLIC HEALTH

                      AND THE ENVIRONMENT

    Mr. Fatur. Good afternoon, Chairman Reed, and Members of 
the Subcommittee. My name is Rick Fatur, and I am an 
Environmental Protection Specialist with the Colorado 
Department of Public Health and the Environment's Lead-Based 
Paint Program. I have been asked to testify before your 
Subcommittee on Colorado's Lead-Based Paint Program.
    First, I want to thank you for inviting me to this 
discussion on State and local lead-based paint programs. I 
would like to start by giving you a summary and an overview of 
our State program.
    I would say that Colorado is an example of a State with an 
average childhood lead poisoning problem. We have found that 3 
to 4 percent of the children tested have elevated blood lead 
levels, which is close to the national average. We have 
identified pockets or areas where 15 to 20 percent of the 
children have elevated blood lead levels, but we do not seem to 
have the same problem that some States have where certain 
cities or areas may have up to 50 percent of the children with 
elevated blood lead levels.
    The only current Colorado State lead-based paint regulation 

covers the abatement of lead-based paint. Colorado's lead-based 

paint regulation for abatement is nearly identical in content 
to the 
Federal EPA lead-based paint regulation for abatement, with a 
few minor differences.
    The current regulation covers the following items. There 
are requirements for conducting lead-based paint inspections, 
risk assessments, and then also abatement projects. In 
addition, abatement projects have requirements for notification 
and also submitting a protection plan. They need to be 
conducted by certified abatement firms using certified workers 
and supervisors, and are inspected by the State to ensure that 
proper work method are being used. We also have a compliance 
section so enforcement actions may be taken for noted 
violations. We require certification of abatement firms, 
workers, supervisors, designers, inspectors and risk assessors. 
And we approve training providers and audit the classes to 
assure proper content.
    Overall, the State regulation is working well. Inspections, 
risk assessments, and abatements are presently all voluntary 
activities. I believe lead poisoning could be further reduced 
if triggers could be introduced requiring these activities be 
conducted under certain circumstances.
    I would now like to address some of the positive aspects of 
our program.
    We are showing an increase in abatement activities/
projects, which shows that people are becoming more aware of 
the problem.
    We are also showing an increase in the number of abatement 
firms, and all personal certifications.
    Working ``lead-safe,'' by containing and controlling lead 
hazards, is becoming a more common-place practice in Colorado.
    Since inspections, risk assessments and abatements are 
volun-
tary activities, a major part of the program is outreach and 
education. We developed a Colorado Lead Coalition to help us 
with these activities and are seeing very good results from its 
work. Incidentally, the EPA recently honored our Colorado Lead 
Coalition with an Environmental Achievement Award on October 
30.
    The members of the coalition include: The Colorado 
Department of Public Health and the Environment; the 
Environmental Protection Agency; the Colorado Department of 
Housing; the Denver Environmental Health; the Denver Housing 
and Neighborhood Development; the Northeast Denver Housing 
Center; the Denver Water Board; and the Agency for Toxic 
Substances and Disease Registry.
    The new coalition members that will be joining this year 
include OSHA, HUD, and the El Paso County Health Department.
    The Colorado program for testing children is working well 
and we continue to see an increase in the number of children 
being tested. We have begun the process of revising our State 
regulation to mirror the new EPA regulatory requirements issued 
in January 2001.
    Finally, I would like to discuss some of the problems we 
have seen, not only within our State, but also nationally.
    By far the majority of projects are being done for the 
purpose of renovation and remodeling, not for abatement. 
Abatement is the elimination lead-based paint hazards and must 
be conducted in accordance with existing regulations. HUD 
requires some training to control lead-based paint hazards 
during HUD's renovation and remodeling projects, but the vast 
majority of renovation or remodeling projects are still being 
done by untrained persons without any control measures.
    Again, I believe lead poisoning could be further reduced if 
triggers could be introduced requiring inspections before 
renovation and remodeling is permitted, and requiring that risk 
assessments and abatement be conducted under certain 
circumstances.
    The EPA needs to promulgate their other regulations as 
quickly as possible to close the present loopholes. These 
include the regulations covering--renovation and remodeling and 
buildings, bridges and structures.
    One of the most significant problems involving lead-based 
paint is the lack of funding or financial assistance available 
for abatement or lead-safe renovation and remodeling.
    Although there seems to be enough funding for training, 
outreach, education and even free training classes, almost no 
money exists to help the underprivileged families who have 
lead-poisoned children and have an urgent need for interim 
controls or abatement to correct lead-based paint hazards in 
their homes. We should think of ways to focus more immediate 
attention on this issue.
    We will all need to work together to resolve some of these 
problems in order to reach our Nation's goal of eliminating 
childhood lead poisoning by the year 2010.
    Thank you very much, and I would be glad to respond to any 
questions you may have. I have also included a rough diagram of 
the current lead-based paint regulations and how they affect 
each other, and I would be glad to discuss the diagram if 
anyone has any questions.
    Senator Reed. Thank you very much for your testimony. My 
pronunciation I think is different than your pronunciation.
    Mr. Fatur. It is close.
    [Laughter.]
    Senator Reed. Anytime there is an A, I have a problem. So 
how is your name pronounced?
    Mr. Fatur. ``Fa-ture.''
    Senator Reed. Fatur. Well, thank you very much, Mr. Fatur, 
for your testimony and also for your years of effort in this 
area.
    Mr. Fatur. You are welcome.
    Senator Reed. Thank you so much.
    Ms. Heller.

                    STATEMENT OF SUE HELLER

                  PROJECT ADMINISTRATOR OF THE

               MANCHESTER LEAD ABATEMENT PROJECT

                    MANCHESTER, CONNECTICUT

    Ms. Heller. I am Sue Heller. I am administrator of LAP, the 
Manchester, Connecticut Lead Abatement Project.
    Thanks to those who direct their own energies and staff 
work 
toward lead solutions.
    Senator Jack Reed holds the first lead-based paint hearing 
in 10 years, yet another milestone in his quest to end lead 
poisoning in our time. What better place to be than in a 
hearing where rank is accorded to Senator Allard of Leadville. 
We are all from Leadville today.
    Connecticut's lead muse is Senator Christopher Dodd, a 
champion of children, housing and Medicaid. Senator Joseph 
Lieberman and our Representative John Larson provide 
Connecticut with knowledgeable and substantive support.
    As a HUD grantee, we appreciate the insightful, effective 
leadership of David Jacobs. Today, when thoughtful people are 
preoccupied with national values, security, and other 
imponderables, it is a comfort to be able to talk about a 
preventable, soluble problem--childhood lead poisoning.
    Over a million Connecticut household units were built 
before 1978. Five hundred thousand have some lead paint risks 
and 65,000 suffer real hazards. Children are not adequately 
screened 
or tested for blood lead levels, despite pediatric advice and 
the 
Medicaid Band-Aid.
    Connecticut landlords are obligated to abate when a 
resident child is poisoned at 20 micrograms per deciliter. No 
regulation or resource compels correction when a child has a 
mild elevation.
    Poor cash flow in low-income housing and ignorance of 
effective lead practices deter owner response. Blood lead 
levels lower than 10, formerly thought safe, seem to be 
damaging. Poisoning thought irreversible, though, thankfully, 
is treatable. So prevention, which costs less than abatement, 
is the cost-effective strategy of choice.
    Our State responds to the prevailing lead problems of old 
housing, ignorance of lead safety, insufficient screening, and 
a shortage of resources. Training is delivered in lead safety 
and licensure.
    Some jurisdictions have won Federal lead money, but very 
leaded areas in the State have unsuccessfully competed for 
scarce grants. The courts aggressively enforce lead orders. 
Hartford instituted a postal cancellation message and a stamp 
to command resources and attention recently.
    Screening is increasing in some larger cities and the State 
has two regional treatment centers, each with lead-safe houses.
    Manchester, Connecticut, uses its 368 HUD-funded units to 
pilot innovations and to build local capacity. In moving toward 
prevention, we have invoked four levels of intervention--
lowering average costs in the process from $11,500 to $7,250 
per unit. We have developed an economic sector of the 
construction industry devoted to lead and delivered customized 
training for thousands. LAP has used lead funds to trigger 
homeownership for 14 low-income, first-time homeowner-
occupants, meeting local community development and housing 
affordability objectives as abatement money is combined with 
local rehab.
    Senator Dodd recently jump-started a Manchester initiative, 
Lead Action for Medicaid Primary Prevention (LAMPP). The 
Senator responded to the opportunity to maximize potential 
development of Medicaid youngsters by investing in affordable 
housing.
    LAMPP will remediate housing where mildly elevated Medicaid 
youngsters live. Managed care health providers will refer cases 
for preventive, cost-effective measures: window repair or 
replacement, paint stabilization, and grass seeding.
    A State-funded pilot at $200,000 a year for 2 years will be 
matched by funds from lead and housing programs, bonding, 
Medicaid, private dollars, and if we are persuasive, Federal 
funds.
    LAP has won a national best practice award and a local 
customer service award for its production, cost effectiveness, 
prevention, and creativity. But those things are not enough.
    What needs to be done? More funds are necessary for 
prevention to deal proactively with children at risk, while not 
yet poisoned, and to continue to react to poisoned kids.
    Money should be directed at prepoison efforts, like nursery 
preparation or turn-over strategies, where owners can see the 
pay-off of low-cost, preemptive measures applied between 
tenants.
    We must screen more, but use the data dynamically to guide 
remediation, focusing on Medicaid youngsters who are 
disproportionately at risk.
    The Federal Medicaid mandate can be a functional and 
financial lever. We have to demythologize lead costs and 
liability by demonstrating low-cost, lead-safe skills. Best 
practices, new equipment, relocation techniques, and technical 
assistance to remodelers. We have to encourage those who can 
afford to remediate themselves.
    Programs like ours can only remediate at present an 
infinitesimal percent of the real needs. In Manchester, it is 3 
percent. With 
additional dollars, we can satisfy the real demand for assisted 
abatement and prevention. Early prevention can preclude life-
long neurologic impairment of kids, deter costly treatment of 
poisoned children and their households, and reduce expensive 
special education and behavioral intervention necessary once a 
child is poisoned.
    We need more funding for a well-managed strategy to ensure 
quick implementation of compound benefits--healthier children, 
sounder housing, and improved neighborhoods.
    Senator Reed. Thank you Ms. Heller, for your testimony.
    Thank you all for your excellent testimony.
    Let me begin with Ms. Heller, if I could.
    Dr. Lanphear testified with great conviction, at least to 
this person, that the standard is probably too high in terms of 
assessing the true damage to children. If we were to adopt a 
lower standard, what impact would that have from your 
perspective locally on screening remediation, other than the 
obvious that it will cost more money. Can you flesh out some of 
the impacts?
    Ms. Heller. I think more sensitive prenatal work--the 
nursery preparation, attention by public health professionals, 
and of course, more money for these programs to demonstrate how 
things can be done to people who cannot afford to do them, as 
well as to people who can.
    Senator Reed. And you indicated that in your testimony, 
with your leadership, and Senator Dodd and others, you have 
begun to coordinate better the medical establishment and the 
housing establishment for remediation. You might elaborate on 
what you have done, but also, an indication if that is common 
throughout the country or something very rare?
    Ms. Heller. It is fairly rare. We have been very fortunate.
    Manchester is an extremely well run community, and while 
not so affluent, its effective administrative infrastructure 
masks some of the problems. I think if we could export that 
spirit of cooperation between health and housing authorities, 
it would be an extremely valuable tool to use around the 
country.
    We have done it through mutual respect, and it is hard to 
say what else--lots of work, mutual respect.
    Senator Reed. Good.
    Mr. Fatur, in Colorado, have you been able to link together 
the housing authorities and health care providers in terms of 
remediation of the problems in treating the children?
    Mr. Fatur. We have to some extent. The main work that we 
have tried to do is through outreach, through our lead 
coalition and getting other people involved, and doing outreach 
activities for different groups, which include health care 
providers. It is an area where you just need everybody to work 
together and everybody's support and everyone to get on the 
same page.
    Senator Reed. Are your health care professionals and the 
community leaders also talking about lowering the standard for 
the threshold?
    Mr. Fatur. There is talk about that. But in Colorado, we 
pretty much are adopting the EPA's regulations as they come out 
and trying to be not more strict or stringent than they are, 
even though it might merit it in this case. We really probably 
would not be able to in Colorado, I do not think, unless EPA or 
HUD or the rest of the agencies set their standards lower than 
we could in Colorado if we were to adopt those standards.
    Senator Reed. You have an interesting perspective. You are 
there in the locality, working at the State level with 
communities. Are there any techniques or programs that you find 
particularly useful that you think should be copied across the 
country?
    Mr. Fatur. Well, I believe the main thing that we have done 
there is we found that communication really is the key because 
a lot of it focuses on outreach and education. One of the main 
things that we have done in Colorado is develop our lead 
coalition. And you can see that we have a variety of housing 
environmental agencies, et cetera, there.
    We meet once or twice a month for planning activities for 
the National Child Lead Poisoning Prevention Week. We assist 
each other with the programs and outreach. We try to focus our 
outreach activities so that not everybody is focusing on the 
schools. We can spread it out. We get together and combine and 
do presentations for different organizations and try to come to 
an agreement on the different regulations because they may not 
exactly mirror each other. We try to get the local health 
departments involved. We have Denver environmental health and 
El Paso County.
    One of the main things that we have done is we are now 
going to be partnering with the National Coalition for Lead-
Safe Kids, which is a national coalition, and we are going to 
try to bring some of their expertise that they have nationally 
into Colorado to also help us there. I think they are a great 
organization and they can help anyone who is trying to develop 
a coalition in their own State.
    Senator Reed. Just one question for both Mr. Fatur and Ms. 
Heller.
    I was struck by Mr. Farr's comment that in my own capital 
city of Providence, they were able to identify one unit that in 
a series exposed several different children. Do you have that 
kind of housing data in Colorado that you could identify the 
units that consistently seem to be a problem? And similarly, in 
Connecticut?
    Mr. Fatur. Not to a great extent. If we have a home that we 
know we have done a project in and we know there is a lead 
hazard, then we can start tracking the families that go through 
there. But, in general, it is not really adequate to do that.
    Senator Reed. And I would presume also that a treating 
physician probably would not have access to a database like 
that, so that when a child walked in, it does not even register 
that this child is coming from a location that another child 
might have come in weeks or months before.
    Mr. Fatur. Right. Well, one thing that we are really 
working on and it fits in with what you are talking about, is 
we had a guest speaker in our coalition meetings from the EPA 
environmental 
justice department or section. They are working with us to do 
some GIS mapping for all the areas in Colorado so we can try to 

establish that type of information and target areas and even in 

homes where we know that there is a problem and try to track 
those homes.
    So, we are working on that now jointly with the EPA 
environmental justice department.
    Senator Reed. Ms. Heller, can you comment from your 
perspective in Connecticut?
    Ms. Heller. In Connecticut, I would say that it does 
happen. In Manchester, it is very unlikely to happen because we 
have a highly aggressive coordinated code enforcement team. And 
that team includes health and housing, as well as code 
officials. I would say that that is one way that we attack the 
issue and it is one way that you can join the various 
disciplines involved in it, along with the availability of the 
Federal money.
    Our lead grant has been very inducive to cooperation 
because housing and health authorities realize that using the 
money is going to solve health problems, health code issues, 
building code issues, and help affordable housing, along with 
school programs where health and housing are issues. I would 
say that we have a fairly coordinated effort.
    Senator Reed. All right.
    Mr. Whitehouse, let me commend you for your leadership on 
these issues and the aggressive way that you have tried to use 
your enforcement authorities.
    And I think one of the issues that came up in the other 
panel is that we have a lot of statutes on the books, but until 
they are enforced, they are just on the books. They are not 
helping kids.
    You indicated in your testimony that you have brought about 
20 lawsuits against landlords who allowed their properties to 
fall into disrepair. This is a relatively low number given the 
number of properties. Can you comment upon your constraints, 
and also, given your engagement with other attorney generals 
around the country, the issues that face them in terms of 
prioritizing and pursuing these types of actions?
    Mr. Whitehouse. When we are bringing enforcement actions, 
we are following up on really two initiatives to locate the 
cases. 
One is to follow up on the Department of Health's 
identification of 
individual children as already lead-poisoned, and we have a 
mechanism in place where we have worked out the health care 
confidentiality problems and we can get access to that 
information and address the landlords whose houses are 
responsible for that particular poisoning.
    As earlier speakers have said, that sort of thing requires 
children to being the canaries in the mine, to being the 
biological indicators, I think Dr. Lanphear said. And that is a 
very unfortunate way to deal with the public health problem. 
Another way that we are doing this is with what we call the 
Nuisance Task Force, which brings together code enforcement, 
the police departments, and a variety of local officials with 
our office to highlight what we think are dangerous or 
offending places.
    And it may be that they are offensive primarily for the 
number of police visits to them more than lead immediately. But 
you then highlight the major properties and that gives you an 
opportunity to go out and pursue them. Unlike a murder or a 
robbery, you do not always have a victim complaining of the 
offense. You have to be able to go out and find the situations.

    Most attorney generals' offices are not set up with a lead 
investigative capability. And so, to some extent, we are 
required either to develop that as we have done and to work 
with other agencies in order to get that in.

    The 20 cases are cases that have actually gone to trial. We 
have a process, once we are notified by the Department of 
Health, or once we identify a nuisance property, of bringing in 
the landlord for a little frank discussion. And very often, we 
find that the frank discussion solves the problem right away 
and we then enter into a consent agreement that will solve it, 
or send them back to the Department of Health for compliance 
with the existing Department of Health abatement program.

    So, to a degree, that 20 represents not all that we have 
done, but, rather, the top of the pyramid, and below that are 
the collateral effects of people who did not get that far with 
us, or indeed, who never need to come to us because the word 
was out that we were taking this seriously and that landlords 
would be pursued until the problem was solved.

    Senator Reed. Now, you also indicated in your testimony, 
Mr. Whitehouse, that you have made referrals to Federal 
authorities--EPA, HUD, and to the Federal Attorney's Office. 
Can you comment upon their capacity, not just Rhode Island, 
but, again, from your perspective across the country, to follow 
up on some of these suits?

    Mr. Whitehouse. The capacity is obviously not great. They 
have done at least one lawsuit at the U.S. Attorney's Office 
that I am aware of. It is a very busy office with a lot of 
major matters. And in the wake of the events of September 11, 
and Attorney General Ashcroft's desire to focus the Department 
of Justice more aggressively on antiterrorism activities, that 
leave less rather than more for lead paint enforcement.

    I think that the primary enforcement will remain at the 
State level and at the municipal level.

    Senator Reed. To what extent, could Federal resources and 
programmatic support help this issue, from your perspective?

    Mr. Whitehouse. I think programmatic support would be very 
valuable. The Federal statutes primarily address the question 
of notice provided at the time of transfer of a property and 
whether or not adequate notice under the Federal law was 
provided.

    It has penalties for failure to provide notice, but it is 
not--unlike nuisance law, which was an ancient common-law 
doctrine that allows you to get right into that house and to 
order it cleaned up, the Federal statute more polices the 
notification rather than the actual public harm that is taking 
place from lead paint poisoning.

    I think the primary focus will remain at the State level, 
and to the extent that resources could come to departments like 
mine that are active in this, or would become active if they 
had resources, I think that would be a wise investment.

    Senator Reed. Thank you very much.

    We have been joined by Senator Carper. Senator, if you 
would like to make a statement and ask questions, please go 
ahead.

             STATEMENT OF SENATOR THOMAS R. CARPER

    Senator Carper. Mr. Chairman, thank you very much, and to 
our witnesses, welcome. It is nice to have somebody here from a 

smaller State than Delaware.
    [Laughter.]
    There is only one State smaller than ours, but you have 
more people.
    [Laughter.]
    We are delighted you all are here and we thank you very 
much for your testimony.
    Senator Reed. The question is, do we have more lead? That 
is the question.
    [Laughter.]
    Senator Carper. In Delaware we have tried--and if you will 
excuse this--we have tried to get the lead out. Senator, when 
you and I served together in the House of Representatives, Joe 
Biden and I worked, along with the people who ran public 
housing in the State of Delaware, an effort to try to eradicate 
lead paint from our public housing. We did not get it all, but 
I think we have a whole lot of it eliminated.
    At the time, the Administration here in Washington was 
saying that we should become proactive with respect to lead 
paint in public housing, especially when kids got sick. And we 
said, no, that is too late, and what we ought to do is 
proactive and try to get started on the job before kids became 
sick and had elevated levels of lead in their blood.
    I have a couple of questions, if I could, and maybe I could 
start with you, Ms. Heller.
    I am sorry I missed your testimony. I was called out of the 
room. Could you just take maybe 60 seconds and share with me a 
point or two that you would want me to take away from your 
comments?
    Ms. Heller. We need more money for prevention, as you 
yourself said, and to demonstrate preventive activities, things 
like lower cost lead abatement, projects that focus on 
Medicaid, children who are at risk, and projects that help 
families to prepare nurseries or help them to do work on their 
houses, lead-safely.
    Senator Carper. Fine. Do you lead the Connecticut Lead 
Abatement Project? Is that correct?
    Ms. Heller. Excuse me?
    Senator Carper. The Connecticut Lead Abatement Project.
    Ms. Heller. Manchester Connecticut Lead Abatement Project.
    Senator Carper. All right. Fair enough. I understand that 
you may have some involvement in the private sector in that 
initiative. And I would just ask, how has the involvement, if 
there is some of the private sector, in your group's endeavors, 
how has it impacted the ability of the project to fight lead 
enforcement?
    Ms. Heller. That is a really good question because I think 
involving the private sector is one of the keys. Most 
particularly, to gaining the hearts and minds of people and 
developing a constituency to actually think of lead as a very 
important issue.
    We do work on customizing training for very many population 
groups in order to capture their hearts and minds. And I think, 
as in most of these things, if you first listen and hear the 
real concerns of the constituencies, you can customize training 
and programs to meet their needs. So, I would have to say that 
is it.
    Senator Carper. Fine. Thank you.
    Is it Mr. Fatur?
    Mr. Fatur. Fatur.
    Senator Carper. Do people ever mispronounce your name?
    Senator Reed. Constantly.
    [Laughter.]
    Senator Carper. I will try not to butcher it too badly. I 
get called all kinds of things as well.
    Mr. Fatur. All right. Well, it is unusual if someone gets 
it right the first time.
    Senator Carper. I was trying to when you pronounced it.
    If I could walk out of here with only one or two points 
that you have made in your testimony, what would those be?
    Mr. Fatur. Well, to kind of summarize, the program in 
Colorado is working really well. We have developed a lead 
coalition that I talked about where all the different agencies 
get together, housing and Federal agencies and health 
departments and that, to try to get on the same page for 
solving this problem.
    We do have some problems that we have encountered in the 
State and those I will just run through briefly again.
    One is that most of the projects are being done for the 
purpose of renovation and remodeling and not abatement. 
Abatement requires that control methods are being used. 
Renovation and remodeling in HUD's projects requires control 
methods. But if it is not a HUD project and it is not 
abatement, 99 percent of the projects are being done without 
any type of controls. We would like to see that cleared up. The 
EPA could come out with regulations quicker for the renovation 
and remodeling sector, would be one solution.
    The other solution is we could introduce triggers into our 
abatement regulation that would require some of these 
activities before renovation and remodeling, such as 
inspections, risk assessments, some control type of abatement 
measures.
    And the third is, we have had a real problem in Colorado as 
far as getting funding for actual abatement work. The HUD lead 
control hazard grants are really good and really great, but we 
have only been able to get one in Colorado. And if you are 
outside the Denver area, there is virtually no help for these 
people.
    Senator Carper. Good. Thank you very much.
    General Whitehouse? How do you like being a General?
    [Laughter.]
    Mr. Whitehouse. As I tell General Sentrotio, who is head of 
the Rhode Island National Guard, when he calls me General, the 
General in attorney general is the general in general store, 
not the General in General Patton.
    [Laughter.]
    But attorneys general love to be called General, and so 
there 
we are.
    Senator Carper. Lieutenant Governors also like to be called 
Governor, too.
    [Laughter.]
    Mr. Whitehouse. Not lieutenant, I know.
    [Laughter.]
    If I had two points to make, the first would be that lead 
is a particularly insidious and misunderstood poison, in that 
it does not show any immediate effect to children, and in that 
the popular wisdom that you have to be poor and allowing your 
children to eat lead paint chips the size of potato chips in 
order for them to suffer, are wrong. In fact, it is dangerous 
in microscopic levels.
    Second, in order to resolve it, I think a lot of different 
groups and agencies need to be working together. In Rhode 
Island, many are working together. The one that is absent from 
the table is the lead pigment companies. And in the absence of 
their having proposed a meaningful role for themselves in this 
debate, I think it is en-
cumbent upon us to find judges who will do that for them.
    Senator Carper. Okay. I presume that the industry that you 
refer to is not going to be testifying today?
    Senator Reed. We are having a series of hearings, Senator. 
This is the first about local and State responses. I am sure 
they will have an opportunity to testify.
    Senator Carper. Good. Refresh my memory. I do not recall. 
How long has it been since lead paint was outlawed?
    Senator Reed. In 1978.
    Senator Carper. It has been a while. All right. I think you 
noted in your testimony that Rhode Island has pursued Federal 
grants through HUD and maybe other agencies as well. I was just 
wondering, how has your State used those grants? You may have 
touched on this and I just missed it. Which programs, in your 
view, if any of those programs, have proven effective?
    Mr. Whitehouse. The Federal grants have primarily gone into 
the city of Providence, which runs a variety of abatement and 
education programs. I do not work for the city of Providence 
and I could not tell you the details about how those are 
working.
    I do know that the support that the HUD grants help to give 
to the community organizations that are so active on this 
question is very valuable. But I would consider it a piece of a 
larger partnership. The community, through community 
organizations, is really pulling an awful lot of its own 
weight.
    Senator Carper. Thanks again.
    Mr. Chairman, thanks for letting me jump in here with some 
comments and some questions.
    And to our witnesses, thanks for joining us today.
    Senator Reed. Thank you, Senator Carper.
    Thank you, ladies and gentlemen, for your excellent 
testimony. And as I indicated, this is the first in what I 
assume will be several hearings. This is a critical issue. It 
is the number one pediatric health issue in the country and it 
is something that we can do that is absolutely preventable. And 
shame on us if we do not.
    Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
    [Prepared statements supplied for the record follow:]
             PREPARED STATEMENT OF SENATOR THOMAS R. CARPER
    Mr. Chairman, thank you for holding this hearing on such an 
important issue. I would like to commend you for your leadership in 
seeking to eradicate childhood lead poisoning in the United States. I 
was pleased to cosponsor your resolution, 
S. Res. 166, designating October 21-27 as ``National Childhood Lead 
Poisoning Prevention Week.''
    My interest in this issue dates back to my days serving in the 
House of Representatives. When children living in public housing began 
to get sick in the 1980's, tests revealed high lead blood levels, 
indicating lead-based paint as the cause. I worked with Senator Joe 
Biden to ensure that the Department of Housing and Urban Development 
pursue preventative, rather than remedial, actions concerning lead-
based paint in public housing. HUD preferred a ``health'' approach, 
requiring lead removal only after illness or high lead blood levels had 
already occurred, while Senator Biden and I advocated a ``housing'' 
approach, which called for preventative action in all public housing 
regardless of age of inhabitants or signs of illness.
    With nearly one million children affected, childhood lead poisoning 
continues 
to pose a very serious environmental hazard to America's children. 
Childhood lead 
poisoning is a national health, education, and environmental problem, 
that dis-
proportionately affects low-income and minority families and the cities 
with older 
housing stock.
    The good news is that childhood lead poisoning is preventable. As 
the Department of Housing and Urban Development and the Environmental 
Protection Agency have recognized, the presence of lead-based paint 
does not present a risk to children. Hazards result when lead-based 
paint has been allowed to deteriorate, typically by landlords who do 
not maintain their properties. Childhood lead poisoning can be 
prevented if housing, especially houses built before 1950, undergoes 
maintenance and repairs to make them ``lead-safe,'' at-risk children 
are tested, and families and others are educated about preventing 
childhood lead poisoning.
    With high-level leadership, adequate Federal funding for HUD, and 
other lead hazard remediation programs, and attention at the State and 
local level, this problem can be solved. In Delaware we applied for and 
received a $2.7 million grant to increase blood screenings and 
aggressively target problem housing stock. Starting in New Castle 
county and moving south, we hope to eradicate lead hazards in Delaware 
homes within 5 years. Mr. Chairman, I support your efforts to increase 
funding for the lead abatement.
    The solution to lead-based paint hazards is practical, primary 
action now. The way to reduce the hazards is to educate families with 
young children about the risks, to identify and treat children who have 
already been exposed to unhealthful levels of lead, and to require 
property owners to make their properties lead-safe. We need to support 
State and local government efforts by increasing the profile of the 
issue and increasing Federal funding of the HUD Lead Hazard Control 
Programs. And finally, we need Presidential leadership to prioritize 
and publicize this clearly preventable disease.
    I am less certain that litigation is a solution. Former 
manufactures sold lead paint decades ago when it was lawful. The 
Federal Government required that lead-based paint be used in Federal 
buildings, including Federally-funded housing. States and cities 
followed the Federal Government lead and also required the use of lead 
paint in their housing codes.
    Lead-based residential paint has not been sold for decades, and was 
banned for residential use by the Federal Government in 1978. Lawsuits 
or the threat of suits cannot be used to change marketing practices or 
force stronger warning labels to prevent future exposure to a harmful 
product, as was the situation with tobacco, 
because this product is no longer being manufactured. Our primary goal 
now is to 
fix the existing problem, and I am not sure litigation is the most 
effective way 
to do that.
    Mr. Chairman, to solve this problem we need White House leadership 
and co-
operative partnerships with industry, cities, and community-based 
organizations. 
Thank you again for holding this hearing. I look forward to the 
witnesses' testimony today. Their testimony describing State and local 
solutions to the problem of lead-based paint poisoning, as well as the 
views of Duke University Professor of Law Walter Dellinger, will be 
useful as this Subcommittee considers how the Federal Government should 
respond to this problem. Mr. Chairman, thank you again for holding this 
hearing; I look forward to working with you to eliminate childhood lead 
poisoning.
                 PREPARED STATEMENT OF SUSAN THORNFELDT
                  Director, Maine Lead Action Project

                           November 13, 2001
    Good morning. Thank you for your efforts to highlight lead 
poisoning and for 
giving me the opportunity to share our family's story. I am the mother 
of a little 
boy named Sam, who was poisoned by lead. I am the Director of the Maine 
Lead 
Action Project and I also serve on the Board of the Alliance To End 
Childhood Lead Poisoning.
    Lead poisoning entered our lives soon after we purchased our 170-
year-old home. It is a late 19th Century colonial, nestled in a nice 
residential, coastal neighborhood in Portland, Maine. My husband and I 
chose an older home, like many of us do, for its charm, beautifully 
detailed woodwork, and its stately graciousness. As eager, first-time 
homeowners, we soon began our much-needed renovations.
    What we did not know, until our child became inexplicably ill, was 
that our home contained lead. We were unaware of the dangers, and the 
serious, permanent health effects lead could have on our children.
    I first became acquainted with the topic of lead poisoning in an 
article from a very popular parenting book; as a first time mother and 
voracious reader, I absorbed every bit of information about child 
development. I came across a half page devoted to childhood lead 
poisoning, which in a nutshell, explained the rapid rate a child's 
brain grows from birth to age 6 and the irreparable, cognitive damage 
lead could do to children. I did not have to read another word, at my 
urging my son's pediatrician did a lead screen on Sammy and delivered 
the news that, he indeed had elevated blood lead levels. He was 
screened much more frequently from 6 months to 2 years old; his levels 
climbing higher with each visit. This came as a total surprise to my 
husband and me, because we were now religiously cleaning AND washing 
Sam's hands and toys much more often. This was quite honestly, the only 
preventative advice we had received.
    I am sure many other parents of lead-poisoned children have heard 
their own public health department imply, ``Go home, feed your child 
better, watch him more carefully, clean your house, and by the way . . 
. good luck!'' Though it may not be said outright, this is the message 
that is clearly being delivered. Why are we, 
as parents, made to feel that we are somehow responsible for the 
poisoning of our 
children? Does childhood lead poisoning end with the distribution of 
brightly 
colored brochures, frequent hand washings, and ABC's of good nutrition? 
These are the Band-Aids covering up a much bigger problem--toxic paint 
lurking in our country's housing.
    Sadly, Sam was diagnosed with lead poisoning soon after his second 
birthday. As a parent, it is heartbreaking knowing that the home you 
provided for your child was slowly poisoning him everyday. There is no 
deeper feeling of sadness, frustration and helplessness.
    In order to avoid poisoning Sam once again, and endangering our 
daughter, Alexandra, who had just started crawling, we chose to move 
out while lead abatement was performed on our home. I cannot emphasize 
enough the challenge of coping with the stress of caring for a sick 
child, relocating, and dealing with the financial burden--at times it 
was unbearable. Looking back, I am not quite sure how we pulled it off.
    I now have to believe the worst is behind us, and Sammy will have a 
happy childhood, and normal, productive school years. But for many 
children, lead poisoning prevents them from succeeding in school or in 
life.
    Though many other stories may begin much differently than mine--
maybe in 
an apartment in Chicago, on a farm in rural Louisiana or in a home on 
the 
West Coast--many of them share a common theme: Our children served as 
the lead 
detectors alerting us to the hazards of living in a home contaminated 
with lead-
based paint.
    If there is one thing that I have learned from my experiences is 
that the system set up to protect our children from lead poisoning . . 
. is, sadly, reactionary.
    Screening children for lead in their blood is important to finding 
and treating sick children. But allowing children to serve as lead-
detectors is no solution to the environmental disease of lead 
poisoning--it is an immoral approach. In fact, health departments' 
preoccupation with screening children often obscures the need for and 
deflects resources from finding and fixing hazardous houses.
    We can make sure that what happened to my children does not happen 
to other children. But, to do so, we have to confront the reality of 
lead poisoning--this is a disease that a child catches from a house.
    There is only one real way to protect children from lead 
poisoning--and that is to prevent and control hazards in children's 
homes. We need to find the homes with lead-based paint hazards and 
control those hazards before a child is exposed.
    And, as our family's experience proves, educating parents about 
hand washing, and nutrition and hygiene will not solve this problem. 
Children do not need to be told to eat their vegetables and wash their 
hands--they need homes that are safe from lead hazards. What is 
politely called ``parent education'' really amounts to passing the 
buck. Of course, nutrition, hygiene, and housekeeping are beneficial 
but the fact is that my home was dangerous--and millions of homes 
across the country are still today dangerous to children, not because 
of any lapse in parenting, but because the lead industry cared more 
about making money than safety. Despite the overwhelming evidence of 
the danger of its product and the availability of safer alternatives, 
the lead paint manufacturers knowingly marketed a poisonous product for 
decades.
    To add insult to the injury they caused, the paint industry is a 
big proponent of ``parent education.'' Benjamin Moore congratulates 
itself on helping communities hold ``fun and educational'' events about 
lead poisoning for families. Well, I want Benjamin Moore to know that 
lead poisoning is no fun.
    Children and families have paid the price for the industry's 
misconduct. Taxpayers have paid the price for the industry's 
misconduct--hundreds of millions of local, State, and Federal dollars. 
As a parent and a taxpayer, I am tired of paying. I want to know when 
the companies that caused this problem are going to help pay for 
solving this problem.
    We as a country can protect children from lead poisoning. We know 
what to do, what solutions work. We have set the national goal of 
ending this disease by 2010. But solutions cost money. It is time for 
the lead industry to pay its fair share. And it is time that everyone--
communities, Government, and industry--do the job right to eliminate 
lead poisoning once and for all.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            PREPARED STATEMENT OF BRUCE P. LANPHEAR, MD, MPH
 Associate Professor of Pediatrics, Children's Hospital Medical Center
                            Cincinnati, Ohio
                           November 13, 2001
    I am an employee of Children's Hospital Medical Center of 
Cincinnati, Ohio. I am acting on behalf of the children of the United 
States.
A Rationale and Strategy for the Primary Prevention of
Subclinical Lead Toxicity
    Subclinical lead toxicity, defined as a blood lead level of 10  g/
dL or higher, was estimated to affect 1 in every 20 children in the 
United States. [1] The prepon-
derance of experimental and human studies demonstrate serious 
deleterious and 
irreversible effects of low-level lead exposure on brain function, such 
as lowered 
intelligence and diminished school performance, especially from 
exposures that occur in early life. [2] Collectively, the results of 
these studies argue that efforts to prevent neurocognitive impairment 
associated with lead exposure should emphasize primary prevention--the 
elimination of residential lead hazards before a child is 
unduly exposed. This contrasts, paradoxically, with current practices 
and policies 
that rely almost exclusively on secondary prevention efforts--attempts 
to reduce a 
child's exposure to residential lead hazards only after a child has 
been unduly exposed. Despite an abundance of recommendations about how 
to prevent children's exposure to residential lead hazards, there is a 
paucity of data demonstrating the safety or benefits of these 
recommended controls for children with blood lead levels below 25  g/
dL. [3]
    Although the mechanisms by which lead causes its toxic effects 
remain unknown, substantial progress has been made in reducing 
widespread lead exposure. During the past two decades, average blood 
lead levels in U.S. children have fallen by over 90 percent, due 
largely to the elimination of lead from gasoline, dietary sources (for 
example, lead-soldered canned foods and beverages), and residential 
lead-based paint. [3, 5] It is estimated that 890,000 (4.4 percent) 
preschool children in the United States have a blood lead of 10  g/dL 
or higher. [1]. But in some cities, especially in the northeastern and 
midwestern United States, over 35 percent of preschool children have 
blood lead levels exceeding 10  g/dL from exposure to residential lead 
hazards. [6]
    Prior to 1970, lead poisoning was defined by blood lead greater 
than 60  g/dL, a level often associated with acute symptomatic 
disease--including abdominal colic, frank anemia, encephalopathy or 
death. Since then, the threshold for defining elevated blood lead 
levels has gradually been reduced. In 1991, CDC reduced the threshold 
even further, to 10  g/dL. [4] These ongoing reductions in the 
acceptable levels of children's blood lead were the result of evidence 
indicating that blood lead levels as low as 10  g/dL were associated 
with adverse effects in children, such as lowered intelligence, hearing 
deficits and growth retardation. [2]
    Although blood lead concentrations below 10  g/dL are often 
considered typical or ``normal'' for children, contemporary levels of 
childhood lead exposure remain exceedingly high compared with that of 
pre-industrial humans. [7] Indeed, there is increasing evidence that 
lead-associated cognitive deficits occur at blood lead lower than 5  g/
dL. [8] Collectively, the results of existing research argue for a 
reduction in blood lead levels that are considered ``acceptable''--from 
10  g/dL to 5  g/dL or lower. They also argue for a shift toward the 
primary prevention of childhood lead exposure, which contrasts sharply 
with current efforts that rely almost exclusively on case management of 
children with elevated blood lead levels. [3]
From Screening Children to Housing
    Universal screening of children for elevated blood lead levels in 
the United States is controversial. Elevations in children's blood lead 
level are unevenly distributed in the U.S. population--varying by 
child's age, poverty level, race, and condition and age of housing. [1, 
6] Due to the focal distribution of lead exposure, few children are 
identified as having an elevated blood lead level in some communities. 
Thus, some pediatricians and public health officials are hesitant or 
vigorously oppose universal screening. There is no question, however, 
that because lead exposure is 
cumulative and its detrimental effects irreversible, [9] any strategy 
that is limited 
to screening children after an exposure has occurred is flawed. [3]
    Thus, there continues to be a need to refine screening strategies 
to target and identify children with undue lead exposure. [10] But it 
is more critical to develop a strategy and expand our efforts to 
identify and eliminate residential lead hazards before children are 
unduly exposed.
Residential Sources of Lead Exposure
    Paint is the major source of childhood lead poisoning in the United 
States. Children with blood lead above 55  g/dL are more likely to have 
paint chips observable on abdominal radiographs and the majority of 
preschool children with blood lead over 25  g/dL are reported to put 
paint chips in their mouths. [11] In contrast, house dust contaminated 
with lead from deteriorated paint and soil is the prim-
ary source of lead ingestion for children with blood lead between 10  
g/dL and 25 
 g/dL. [12] Over 95 percent of U.S. children who have elevations in 
blood lead fall 
within this range. [1]
Residential Standards: Key to Prevention
    Under Section 403 of Title X, the U.S. Congress mandated the 
Environmental Protection Agency (EPA) to promulgate health-based lead 
standards and post-abatement clearance testing for house dust and 
residential soil. Standards are necessary for screening high-risk 
housing to identify lead hazards prior to occupancy and before a child 
is unduly exposed. Residential standards are also critical to identify 
and eliminate lead hazards for children who already have elevated blood 
lead levels; major sources of lead will be neglected if dust and soil 
testing are not routinely done. Finally, standards serve as a benchmark 
to compare the effectiveness and 
duration of various lead hazard controls. But if standards remain 
voluntary, they 
will not be used nor will they protect children from undue lead 
exposure.
    EPA defines their level of statutory concern as between 1 percent 
to 5 percent probability of a child having a blood lead level in excess 
of 10  g/dL. Scientists have estimated, from epidemiologic data, that 5 
percent of children will have a blood lead level *10  g/dL at a floor 
lead level of 5  g/ft\2\--a value almost 10 times lower than the 
proposed EPA floor standard. [13] At a floor standard of 50  g/ft\2\, 
20 percent of children are estimated to have a blood lead level *10  g/
dL. [13] Children who are exposed to floor dust lead levels *25  g/
ft\2\ are at 8 times higher risk of hav-
ing blood lead levels *10  g/dL compared with those exposed to levels 
below 2.5 
 g/ft\2\. [13] Thus, the floor standard promulgated by EPA is 
inconsistent with their 
definition of blood lead levels that ``pose a threat'' and does not 
adequately protect children.
Hazards of Lead Hazard Controls
    Lead poisoning is often regarded as a preventable disease. In 
practice, however, the safety and benefits of measures intended to 
control or reduce residential lead hazards are uncertain. Interventions 
to prevent or control childhood lead exposure (called lead hazard 
controls) have far too often been shown to result in an increase in 
children's blood lead levels. [14] There is some evidence that lead 
hazard controls, including paint deleading or abatement and 
stabilization of painted surfaces, can reduce lead exposure for 
children who have blood lead levels *30  g/dL. [15] In contrast, it is 
uncertain if lead hazard controls are safe or beneficial for children 
who have lower blood lead levels. Indeed, paint abatement has been 
shown to cause a rise in children's blood lead levels. [16] Presumably, 
this rise in blood lead levels is due to lead contamination from 
removal or scraping of leaded paint. [17] It is 
likely that lead hazards caused by lead hazard controls or renovation 
can be elimi-
nated by promulgating effective health-based dust standards and 
requiring that clearance tests are conducted after any renovation or 
abatement is complete. But clearance tests or residential lead 
standards must be empirically derived and protect children from undue 
lead exposure, as measured by blood lead levels.
    The costs to prevent childhood lead poisoning from residential 
hazards are very substantial. It has been estimated, for example, that 
the first year cost to reduce residential lead hazards in Federally-
owned or Federally-assisted housing is $458 million. HUD has estimated 
the overall benefit, defined as increase in lifetime earnings of 
children who are protected from the detrimental effects of lead 
exposure, was $1.538 billion--a net benefit of $1.08 billion. [18] This 
estimate does not, however, include recent findings indicating that the 
drop in IQ is greater for each 1  g/dL increase in blood lead at levels 
below 10  g/dL. [19] Nor does it include other anticipated benefits, 
such as reductions in cardiovascular disease, tooth decay and 
delinquent behaviors. [20]
Other Residential Hazards
    Lead poisoning in childhood is only one of several indicators of 
our failure to protect children from residential hazards. Children's 
health is a function of their home environment. If residential hazards 
were eliminated, morbidity and mortality among children in the United 
States would decline dramatically. Moreover, many of the 
racial and socioeconomic disparities in children's health would be 
reduced.
    Injuries, including falls, ingestion, and burn injuries, are the 
major causes of morbidity and mortality in children. Over 50 percent of 
fatal and nonfatal injuries in childhood occur in children's homes. 
[21] Environmental tobacco smoke competes with injuries as the leading 
cause of disease in U.S. children. [22] Over 43 percent of U.S. 
children are exposed to environmental tobacco smoke in their homes, 
leading to a dramatic excess of asthma and respiratory illness. [23] 
Asthma, the most common chronic disease of childhood, is intimately 
linked to residential exposures of indoor allergens and pollutants. 
[23-24] Indeed, it has been estimated that over 40 percent of doctor-
diagnosed asthma in children under 16 years is attributable to 
residential exposures. [23-24] In the past 2 decades, asthma rates 
doubled in U.S. children. [25] Finally, a number of agents encountered 
in housing, including pesticides, have been linked to detrimental 
effects in children. [26] Thus, it is clear that residential hazards 
are critical determinants of children's health.
    Childhood exposures to residential hazards are antecedents for 
diseases in adulthood. The detrimental effects of low-level lead 
exposure on intelligence are irreversible and dramatically reduce 
opportunities and increase racial inequality. [2, 20] Lead poisoning is 
also associated with cardiovascular disease, premature live births, 
delinquent behaviors, and an increased mortality from all causes. [27] 
Similarly, exposures to indoor allergens during early childhood are 
critical for the development of asthma and the consequences of 
childhood asthma persist throughout life. [28] Racial and socioeconomic 
disparities in environmentally induced diseases, already apparent in 
childhood, are pronounced. [1, 6, 13, 29] Collectively, these data 
indicate that to protect children from the major causes of morbidity 
and mortality, it is critical to develop health policy focusing on the 
control of residential hazards. Many of the strategies and tools that 
are necessary to protect children from undue lead exposure are relevant 
to other residential hazards.
A Strategy for the Primary Prevention of Lead Poisoning
    A comprehensive strategy for the primary prevention of childhood 
lead poisoning should include several components.
Empirically-Based Residential Lead Standards
    Promulgation of empirically-derived, health-based residential lead 
standards are essential. The lead dust standards would be used to 
screen housing before a child is unduly exposed, and after lead hazard 
controls or renovation. [8] These standards must be empirically-derived 
and they must be enforced. Voluntary ``standards'' are unlikely to 
protect the majority of children from undue lead exposure.
    Screening housing units by using dust samples should be 
incorporated into housing codes. Dust sampling should be required prior 
to approval of Federal subsidizes for housing. Exceptions could be made 
for housing units that have been shown to be free of lead-based paint. 
Screening could be targeted to rental housing because the majority of 
children who have blood lead levels of 10  g/dL or higher reside in 
rental housing.
    Studies to assess the ability of individuals who have taken 1 day 
training programs to accurately measure lead-contaminated house dust 
are needed. Ongoing 
research is testing the ability of families to conduct dust sampling 
for lead. These 
research projects are essential to make what is generally regarded as 
the single most important tool to identify housing units that contain 
lead hazards (for example, dust wipe samples) more widely available.
Strategy to Identify and Target Residential Lead Hazards
    National, State, and community surveys of housing need to be 
conducted to identify and prioritize the elimination of residential 
lead hazards. There should be plans for the identification and 
remediation of lead-contaminated housing. There should also be plans 
for the gradual elimination of lead hazards during renovation or 
demolition of older housing.
Studies to Prove Lead Hazard Controls Protect Children
    Once residential hazards are identified, it is essential to have 
safe and effective methods to eliminate them. Although there is good 
evidence that lead abatement or lead hazard controls are effective in 
reducing exposure for children who have blood lead levels over 25  g/
dL, there is limited evidence that existing lead hazard controls are 
safe or efficacious for children with blood lead levels below 25  g/dL. 
Evidence of their safety and efficacy must initially rely on children's 
blood lead 
levels. Thereafter, dust lead levels and other environmental measures 
could be used to evaluate various lead hazard controls. Lead hazard 
controls need to be assessed in trials that are experimental in design 
or, at a minimum, include a control group to account for potential 
confounding variables, such as seasonal variation and the typical 
decline in children's blood lead levels as they mature.
    An expert committee convened by the National Academy of Sciences 
should be asked to critically examine what is known about the safety 
and efficacy of existing lead hazard controls. Specific components of 
lead hazard controls, such as wet versus dry scraping to remove leaded 
paint, should be tested. Too often, we have relied on expert opinion 
about what is safe or effective. These methods can and should be tested 
in randomized trials. Lower cost interventions should be compared with 
full abatement in controlled trials.
    Various strategies that are ultimately shown to be safe and 
effective in preventing lead exposure should be allowed. Owners or 
landlords can then make larger investments for longer term benefits 
(full abatement) and smaller investments that require ongoing 
maintenance (lower cost lead hazard controls). This will provide 
flexibility for housing units with lower and higher value.
Scientific Advisory Committee to HUD
    A Scientific Advisory Committee should be established to advise the 
Director of the Office of Lead Hazard Control and Healthy Home 
Initiative in the U.S. Department of Housing and Urban Development. 
This Committee would advise the Director about research that is 
necessary to protect children from residential lead hazards, including 
lead poisoning, asthma, and residential injuries.
    Funds to conduct research to improve our understanding of and 
control efforts for residential hazards (asthma, injuries and lead 
exposure) should be expanded. These funds should specifically target 
housing factors related to residentially-induced diseases and be 
designated to the Centers for Disease Control and U.S. Department of 
Housing and Urban Development. These funds should be no less than $100 
million annually.
Establish National Institute for Safe Housing
    A national institute for the study and control of housing-related 
morbidity and mortality in children is needed. This institute should 
conduct research to understand and control residentially-induced 
diseases in children. It should maintain surveillance for 
residentially-induced diseases. It should assess the science underlying 
standards or recommendations for residential hazards from the CDC, EPA 
or HUD. It should coordinate efforts of these and other agencies to 
ensure that vital public health research is conducted.
    The research conducted by this institute should adhere to the 
principle that passive controls (for example, efforts that do not 
require modifying individuals' behaviors) are the most effective ways 
to eliminate residentially-induced diseases. For too long, we have 
simply passed out brochures or told mothers to ``clean their houses 
better'' to reduce their child's risk of lead poisoning. Educational 
efforts or dust control are inadequate unless lead-based paint is made 
inaccessible.
    This institute should have funds to conduct research and to make 
awards to universities, public health and housing agencies, and other 
entities for the purpose of understanding and controlling 
residentially-induced diseases in children.
Summary
    The current lead poisoning prevention strategy largely ignores 
existing scientific evidence indicating that our efforts should 
emphasize primary prevention. Most 
Federal agencies involved in lead poisoning prevention acknowledge that 
primary 
prevention is preferable, yet our efforts continue to focus on 
screening children for 
elevated blood lead levels and controlling lead hazards only after a 
child has 
been unduly exposed. It is time to establish a scientifically-based 
strategy to elimi-
nate subclinical lead toxicity by controlling residential lead hazards; 
it is within 
our grasp.
References
    1. Centers for Disease Control. MMWR 46:141-146. (1997)
    2. Baghurst PA, et al. N Engl J Med 327:1279-1284 (1992); Bellinger 
D, et al. Pediatrics, 87:219-227 (1991); Bellinger DC, et al. 
Pediatrics 90:855-861 (1992); Dietrich KN, et al. Pediatrics 91:301-307 
(1993); Needleman HL, et al. JAMA 263:673-678 (1990); Needleman HL, et 
al. N Engl J Med 322:83-88. (1990); Thacker SB, et al. Arch Environ 
Health 47:336-346. (1992)
    3. Lanphear BP. Science 1998; 281:1617-1618.
    4. Centers for Disease Control. Preventing lead poisoning in young 
children: A statement by the Centers for Disease Control, October 1991, 
Atlanta, GA: U.S. Public Department of Health and Human Services.
    5. Brody DJ, et al. JAMA 272:277-283. (1994); Hayes EB, et al. 
Pediatrics 93:195-200. (1994)
    6. Lanphear BP, et al. Pediatrics 101:264-271. (1998); Sargent JD, 
et al. Am J Public Health 85:528-534. (1995)
    7. Patterson C, et al. Sci Total Environ 1991; 107:205-236.
    8. Schwartz J. Environ Res 1994; 65:42-55, Schwartz J, et al., Arch 
Environ Health 1991; 46:300-305, Lanphear BP, et al. Public Health 
Reports 2000; 115:521-529.
    9. Bellinger D, Dietrich KN. Pediat Ann 23:600-605. (1994), 
Lanphear BP, et al. Ped Research 2001; 49:16A.
    10. CDC. Screening young children for lead poisoning. Atlanta: CDC, 
1997.
    11. Shannon MW, et al. Pediatrics 89:87-90. (1992); McElvaine MD, 
et al. Pediatrics 89:740-742. (1992). Charney E, et al. Pediatrics 
1980; 65:226-231. (1980)
    12. Lanphear BP, et al. Am J Public Health 86:1416-1421. (1996); 
Lanphear BP, et al. Am J Public Health 86:1460-1463. (1996); Clark CS, 
et al. Environ Res 38:46-53. (1985); Lanphear BP, et al. Environ Res 
74:67-73. (1997); Rabinowitz M, et al. Environ Res 38:96-107. (1985); 
Lanphear BP, et al. Environ Res 1998; 79:51-68.
    13. Lanphear BP, et al. Am J Public Health 86:1416-1421. (1996). 
Lanphear BP, et al. Environ Res 1998; 79:51-68, Lanphear BP, et al. 
Journal of Pediatrics (in press).
    14. Amitai Y, et al. Pediatrics 88:893-897. (1991); Rey-Alvarez S, 
et al. Pediatrics 79:214-217. (1987); Chisolm JJ. Am J Public Health 
26:236-237. (1986); Farfel MR, et al. Am J Public Health 80:1240-1245. 
(1990); Swindell SL, et al. Clin Pediatrics 536-541. (1994); Aschengrau 
A, et al. Am J Public Health 87:1698-1702. (1997)
    15. Staes C, et al. Am J Epidemiol 139:1016-1026. (1994); U.S. EPA. 
1996, EPA Report 747-R-95-009; Charney E, et al. N Engl J Med 309:1089-
1093. (1983)
    16. Aschengrau A, et al. Am J Public Health 87:1698-1702. (1997)
    17. Farfel MR, Chisolm JJ. Am J Public Health 80:1240-1245. (1990). 
Farfel MR, et al. Environ Res 66:217-221. (1994)
    18. Regulatory Impact Analysis of the Proposed Rule on Lead Based 
Paint in Federally-Owned Residential Property (Office of Lead Hazard 
Control, Department of Housing and Urban Development, Washington, DC, 
1996).
    19. Lanphear BP, et al. Public Health Reports 2000; 115:521-529. 
Lanphear BP, et al. Ped Research 2001; 49:16A.
    20. Needleman HL, et al. JAMA 1996; 275:363-369, Dietrich KN, et 
al., Neurotox Teratology (in press), Moss ME, et al., JAMA 1999; 
281:2294-2298, Schwartz J. Environ Res 1994; 66:105-124.
    21. McLoughlin E, et al. Am J Dis Child 1990 144:677-683. Rivara 
FP, et al. N Engl J Med 1997 Aug 28; 337:543-548, 613-618. Rivara FP, 
et al. Pediatrics 1993; 92:61-63. Stone KE, et al. Journal of Urban 
Health 2000; 77:26-33. Pollack DA, et al. MMWR 1988; 37:13-20.
    22. Aligne CA, et al. Arch Pediatr Adolesc Med 1997; 151(7):648-
653.
    23. Pirkle JL, et al. JAMA 1996 Apr 24; 275(16):1233-1240. Gergen 
PJ, et al. Pediatrics 1998 Feb 1; 101(2):E8. Chilmonczyk BA, et al. New 
Engl J Med 1993; 328:1665-1669. Lanphear BP, et al. Pediatrics 2001; 
017:505-511.
    24. Platt-Mills TAE, et al. J Allergy Clin Immunol 1995; 96:435-
440. Pope AMR, et al. Indoor Allergens--Assessing and controlling 
adverse health effects. 1993, 
National Academy Press, Washington, D.C. Taylor W, et al. Pediatrics 
1992; 
90:657-662.
    25. Gergen PJ, et al. JAMA 1990; 264:1688-1692. Weiss KB, et al. 
Ann Rev Publ Health 1993; 14:491-513.
    26. Daniels JL, et al. Environ Health Perspect 1997; 105:1068-1077. 
Montana E, et al. Pediatrics 1997 Jan 1; 99(1):E5.
    27. McDonald JA et al. Arch Environ Health 1996; 51:116-121. 
Schwartz J. Environ Res 1994; 66:105-124. Needleman HL, et al. JAMA 
1996; 275:363-369 National Research Council. Measuring lead exposure in 
infants, children, and other sensitive populations. National Academy 
Press, 1993.
    28. Strachan DP, et al. BMJ 1996; 312:1195-1199.
    29. Gold DR, et al. Am Rev Respir Dis 1993; 148:10-18.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                    PREPARED STATEMENT OF NICK FARR
                           Executive Director
                 National Center For Lead-Safe Housing
                           November 13, 2001
    Nick Farr is the Executive Director of the National Center for 
Lead-Safe Housing, a Maryland nonprofit corporation. The Center's 
mission is to help sharply reduce childhood lead poisoning while 
preserving the Nation's stock of affordable housing. It developed the 
Department of Housing and Urban Development's Guidelines for the 
Evaluation and Control of Lead-Based Paint Hazards in Housing and is 
evaluating the cost and effectiveness of the lead hazard control 
strategies of State and local recipients of HUD's lead hazard control 
grants. The Center has carried out a number of research projects in 
lead hazard control and provided training and technical assistance to 
cities and nonprofit organizations in developing and carrying out lead 
hazard control programs.
Childhood Lead Poisoning
    Childhood lead poisoning is still the number one environmental 
disease of children. According to estimates of the Centers for Disease 
Control and Prevention 
almost 900,000 children have lead in their blood at or above 10 
micrograms per 
deciliter, the official level of concern. These children are likely to 
suffer from a lowering of their IQ's and their attention spans, leading 
to poor school performance, 
reduced job related capacity and increased adolescent delinquency. 
Recent research suggests that blood lead levels well below 10 
micrograms per deciliter are also asso-
ciated with these problems. So the number of children in harms way 
could be in 
the millions. Since African-American children are five times as likely 
to be poisoned 
than white children, childhood lead poisoning is also a major 
environmental justice 
problem.
    The vast majority of children who have elevated blood lead levels 
became ill by ingesting lead from deteriorated paint in household dust 
or contaminated soil in normal play activities. Young children play on 
floors, at windows or in their yards. Their hands and toys become 
contaminated from lead in dust on the floor, windowsills and window 
wells and in bare soil. They put their hands and toys in their mouths 
and ingest tiny but dangerous amounts of lead. Some of that lead lodges 
in their brains and central nervous system disrupting normal 
neurological development and causing the IQ and attention span 
decrements described above.
    Once the lead has affected the brain and central nervous system, 
the damage is permanent and irreversible. Medical treatment can reduce 
the amount of lead in children's blood at high levels, but recent 
research has confirmed that this medical treatment does not reverse 
past brain damage. Therefore, the only moral and effective way to deal 
with childhood lead poisoning is to prevent children from being 
exposed to lead in the first place.
Lead Hazards in Housing
    Most children with elevated blood lead levels are exposed to lead 
because they live in older, poorly maintained housing containing lead-
based paint. Other children are exposed when their older homes are 
renovated or remodeled and the contractors fail to follow lead safe 
work practices to control, contain and clean up lead contaminated dust 
generated whenever lead-based painted surfaces are disturbed.
    According to the recently completed HUD National Survey of Lead and 
Allergens in Housing, some 38 million homes in the United States have 
lead-based paint somewhere in the building. Over 25 million homes have 
significant lead-based paint hazards. Lead-based paint hazards include:

<bullet> Flaking or peeling lead-based paint.
<bullet> Lead-based paint on friction or impact surfaces, such as 
    windows and doors.
<bullet> Lead-based paint on chewable surfaces, such as window sills.
<bullet> Excessive levels of lead in dust on floors or window sills.
<bullet> Lead contaminated soil.

    Housing in which all paint is intact is not hazardous. As long as 
the house is well maintained and as long as renovators and maintenance 
workers follow lead lead-safe work practices whenever they disturb 
lead-based paint, housing with intact paint will continue to be safe. 
EPA and HUD have developed lead-safe work practices training and HUD is 
subsidizing provision of that training. This approach of educating 
property owners and contractors on how to avoid creating lead hazards 
should be strongly supported to prevent the further increase in the 
number of housing units with lead hazards.
    The greatest risk of lead poisoning occurs in older housing units 
that contain lead hazards and that either will be or are currently 
occupied by low-income families with children under 6. Almost 14 
million housing units are occupied by low-income families. While only 
1.6 million homes with lead-based paint hazards are presently occupied 
by low-income families with a child under 6, most low-income families 
move frequently, particularly those living in rental housing units, 
that are most likely to be in poor condition due to lack of 
maintenance. So it is fair to estimate that the number of hazardous 
housing units in which low-income families with young children now live 
or are likely to live in the near future could well exceed 3 million.
Controlling Lead Hazards
    In Title X of the Housing and Community Development Act of 1992, 
the Congress established the framework for the Nation's effort to end 
childhood lead poisoning. Title X recognized that lead-based paint 
hazards could be safely controlled by treatment strategies short of 
full removal, thereby reducing costs. Subsequent research shows that 
this position was correct. The Center's evaluation of HUD's lead hazard 
control grant program shows that children's blood lead levels decline 
by 26 percent and dust lead levels decline by 66 percent in homes 
treated with modern methods.
    Title X also shifted the emphasis from waiting until a child was 
found to have an elevated blood lead level before dealing with lead 
hazards to controlling lead hazards up front and preventing children 
from being lead poisoned in the first place. It directed HUD to require 
cost-effective lead hazard control treatments in Federally-owned and 
assisted housing. HUD's new lead regulation implements that statutory 
requirement. Cities, counties, and States should carry out those 
requirements without further delay; and HUD should enforce them 
scrupulously. Title X also established the lead hazard control grant 
program to fund lead work in privately-owned, low-income housing.
    Since 1990, the number of housing units with lead-based paint 
hazards has been reduced and these reductions can be expected to 
continue. Some of this reduction results from market forces. Tens of 
thousands of the most contaminated housing are demolished every year. 
Some contaminated housing is remodeled in gentrifying neighborhoods. On 
the other hand, the percentage of housing units with deteriorated lead-
based paint actually increased slightly, from 19 percent in 1990 to 22 
percent in 1998, reflecting the continuing aging of housing and too 
commonly inadequate maintenance of housing occupied by low-income 
families.
    As a direct result of Title X, as many as 1.4 million older, 
Federally-assisted housing units may be made lead safe through HUD 
funded rehabilitation over the next 10 years if contractors follow 
lead-safe work practices. City and State recipients of HUD's lead 
hazard control grants are controlling lead hazards in over 7,000 of the 
most at-risk housing units lead-safe every year. Many of those units 
were occupied by families with lead poisoned children. Many more units 
may be made lead-safe as a result of public education efforts as 
consumers come to demand lead-safety from painters and contractors.
Cost of Lead Hazard Control
    The cost of lead hazard control treatments per housing unit treated 
under the HUD Lead Hazard Control Grant Program varies depending on the 
size and condition of the unit, the type of unit and the hazard control 
strategy selected, ranging from $2,000 for housing units in sound 
condition and with moderate lead hazards to $10,000 or more for 
deteriorated housing with substantial hazards. In many cases, HUD's 
grantees combine lead hazard control work with other rehabilitation 
activities. It is difficult to separate lead hazard control costs from 
rehabilitation costs, because the same activities, such as window 
replacement, serve both purposes. HUD estimates that the incremental 
costs for interim control lead hazard work average about $2,500 and 
$9,000 for abatement of hazards. From the property owner's point of 
view, however, the costs are frequently $5,000 to $10,000.
    As a practical matter, neither market forces nor Federal programs 
are dealing with the most badly contaminated housing where children are 
most at risk of becoming poisoning. This housing is largely located in 
deteriorating inner-city neighborhoods where little or no private funds 
are being invested. Controlling the lead-based hazards in those units 
is so expensive that recipients of HUD grants avoid them so that they 
can treat more housing units with their limited grants. Housing in this 
condition is being abandoned every year; and some properties are being 
demolished with HUD block grant funds. But too many of these high-risk 
housing 
continue to be rented to low-income families who have little or no 
choice. These 
are the housing units in which two or three or more children become 
lead poisoned 
over the years as a succession of families with young children move in 
and out.
    Thus, while progress is being made, at the present rate it will 
take at least several generations to make all housing safe for the 
Nation's children. The Nation will miss the goal of a lead-safe America 
in 2010 by a wide margin. There are a number of steps that can be taken 
to accelerate meeting that national goal, including:

<bullet> Full implementation of HUD's lead regulation.
<bullet> Establishing lead-safe renovation and maintenance as the 
    national norm.
<bullet> Making rehabilitation of older, inner-city housing a national 
    priority.
<bullet> Expanding environmental testing of older properties in at-risk 
    neighborhoods.
<bullet> Demolition of obsolete and uneconomic properties and providing 
    safe replacement housing.
<bullet> Making certain that no housing unit poisons children twice.

    But as a practical matter, HUD's Lead Hazard Control Grant Program 
is the only realistic source of financing at this time for controlling 
lead hazards in the older, low-rent, poorly-maintained housing where 
children are most at risk. Private owners are unable or unwilling to 
make those housing units lead safe, because the costs of lead hazard 
control could never be recouped. In some cases it even exceeds the 
market value of the housing. Cities have other needs and priorities for 
HUD's Community Development Block Grant and HOME funds and may be 
reluctant to condemn units in the already dwindling stock of affordable 
housing for fear of increasing homelessness.
Conclusion
    Childhood lead poisoning will end only when the Nation changes its 
priorities and recognizes childhood lead poisoning as an epidemic that 
must be broadly addressed. For starters, Congress should sharply 
increase appropriations for lead hazard control now. At present, the 
only effective program that can address the core of the problem is 
HUD's Lead Hazard Control Grant Program. The Center estimates that the 
annual appropriation for the program must be increased to $400 or $500 
million if we are to prevent poisoning of generation after generation 
of young children who are likely to fail in school and lead 
unproductive lives.
                               ----------
                PREPARED STATEMENT OF SHELDON WHITEHOUSE
             Attorney General for the State of Rhode Island
                           November 13, 2001
    Mr. Chairman and Members of the Subcommittee on Housing and 
Transportation.
    Rhode Island has a serious lead paint problem. Lead poisoning is an 
insidious condition, because it ordinarily shows no immediate symptoms. 
The brain and nervous system damage lead causes is gradual, and has no 
physical telltales that might warn a parent. The widely spread legend 
that a child has to eat lead paint chips like potato chips to be lead 
poisoned is false, but has misled many families to underestimate the 
hazard for their children, particularly infants.
    The Conservation Law Foundation of Massachusetts described us as 
``The Lead Poison Capitol of the United States.'' \1\ Our Democratic 
General Assembly and our Republican Governor's Administration have both 
identified lead paint as the number one environmental health issue 
facing Rhode Island children.\2\ The rate of lead poisoned children is 
two and a half times higher in Rhode Island than in the rest of the 
United States. In Providence, our capitol, the rate of lead poisoned 
children is four times higher than the rest of the United States.\3\ We 
test the blood of every child entering kindergarten for lead poisoning. 
Every year, more than 2,000 kids 
reporting to kindergarten have elevated lead in their blood.\4\
---------------------------------------------------------------------------
    \1\ Providence Journal-Bulletin, May 18, 1998, at B.4.
    \2\ R.I. Gen. Laws Sec. 23-24.6-3; Governor's Advisory Council on 
Health, First Annual Report 1999 at 18.
    \3\ Providence Journal-Bulletin, May 13, 2001, at A.1.
    \4\ 1998 through 2001 Rhode Island's KIDS COUNT Factbooks. In 1998, 
3,010 kindergartners had elevated blood lead levels. In 1999, 2,327 
kindergartners had elevated blood lead levels. In 2000, 1,873 
kindergartners had elevated blood lead levels and in 2001, 1,713 
kindergartners had elevated blood lead levels. These figures are based 
on the Center for Disease Control's finding that any blood lead level 
exceeding 10 mg/dL is elevated.
---------------------------------------------------------------------------
    Against this backdrop of a real public health calamity, Rhode 
Island has been 
active at the municipal, State, and Federal levels.
Municipal Response
    The bulk of our lead poisoning occurs in older urban areas, and 
most of our older houses are located in our capitol city, Providence. 
Providence has been active in attacking lead paint.
    The city's primary focus is on providing lead safe, healthy 
housing, and public education to its residents. Through an experienced 
lead abatement team, $5 million in HUD and National Safe Houses 
Corporation grants, close enforcement coordination with my office and 
the Department of Health, and aggressive public outreach to children, 
parents, schools, and even realtors, elevated blood lead levels in 
Providence's children have dropped from 38 percent of those entering 
Providence's kindergartens in 1998 to 25 percent of kindergartners 
today.\5\ The city has further allocated $800,000 to help eligible 
owners make their properties safe.\6\ Only a few weeks ago, Providence 
announced that another $4 million from the Neighborhood Improvement 
Bond will be used to shore up city housing stock and that the city has 
applied for another $3 million HUD grant.\7\
---------------------------------------------------------------------------
    \5\ Id.
    \6\ Providence Journal-Bulletin, October 24, 2001, at C.1.
    \7\ Id.
---------------------------------------------------------------------------
The Federal Effort
    We have pursued Federal grants through HUD and other agencies and 
worked with Federal officials, primarily at HUD, EPA, and the U.S. 
Attorney's Office. 
Federal political leaders such as Senator Reed have shown considerable 
interest and vision.
The State of Rhode Island
    The State of Rhode Island is addressing its lead paint public 
health hazard through a variety of agencies and means. Our Department 
of Health conducts the blood testing program I have described. In the 
year 2000, 32,313 children under the age of 6 were tested in Rhode 
Island; 2,804 (8.7 percent) of those children had elevated lead levels 
in their blood.\8\ The Health Department follows up on each case where 
the child's blood lead level is 20 mg/dL or higher, with home 
inspections and case management.
---------------------------------------------------------------------------
    \8\ Department of Health, Office of Occupational and Radiological 
Health & Division of Family Health statistics.
---------------------------------------------------------------------------
    Our Department of Human Services provides funding and care for low-
income residents who experience lead poisoning and require medical 
treatment. Through referral to community-based service providers, Human 
Services, with Medicaid funds, pays for the screening of low-income 
children. In 1998, Rhode Island became the first and only State to 
receive permission from the Healthcare Financing Administration to use 
Medicaid funds for replacing or repairing windows in homes of lead-
poisoned children if landlords or tenants satisfy eligibility 
requirements.\9\ Since window repair and replacement is not normally a 
reimbursable item by Medicaid, this confirms the Federal Government's 
view that the lead paint health problem in Rhode Island is particularly 
acute.
---------------------------------------------------------------------------
    \9\ Providence Journal-Bulletin, December 11, 1998 at B.1.
---------------------------------------------------------------------------
    The Department of Attorney General is involved primarily on the 
enforcement side. When we become aware that a residence contains 
dangerous levels of lead, usually by referral from the Department of 
Health, we take action to require owners and landlords to abate the 
lead. Landlords are not always willing, so we have repeatedly taken 
them to court and obtained orders, contempt judgments, and civil 
penalties to enforce their obligation to abate.\10\ We have 
successfully completed 20 lawsuits. We have approximately 200 cases in 
the office in process right now, and roughly 100 homes and apartments 
(including the exterior and the soil that surrounds them) have 
successfully been abated or are in the process of abatement. We have 
referred cases for prosecution to DOJ, HUD, and EPA to enforce the 
Federal requirements \11\ that landlords and sellers disclose lead 
hazards to buyers and tenants. We hope that the Federal Government will 
take a more active role in prosecuting these cases in the future.
---------------------------------------------------------------------------
    \10\ For example, in Whitehouse v. Piscopio, (KC 00-96), a Superior 
Court judge found a landlord in contempt after judgment had been 
entered against him and he was ordered to abate the lead hazards 
immediately. The judge's contempt order required the landlord to pay 
civil 
penalties, find and fund alternate housing for the tenants, and to 
immediately abate the lead 
hazards or face stiffer fines.
    \11\ 42 U.S.C. Sec. 4851 et seq.; 15 U.S.C. Sec. 2615 (a).
---------------------------------------------------------------------------
    In addition to recognizing the efforts of municipal, Federal and 
State government, I should take a moment to commend the community 
organizations that are so active in Rhode Island in this area: Health & 
Education Leadership for Providence, the Help Lead Safe Center, the 
Childhood Lead Action Project, Greater Elmwood Neighborhood Services, 
various neighborhood and church organizations, Head Start, the VNA, and 
many nonprofit housing groups.
    Blood, toil, tears, and sweat were Winston Churchill's exemplars of 
effort. In Rhode Island, the blood is given by infants and small 
children who must be regularly tested, and in some cases have their 
blood chelated. The tears are shed by family members who discover, 
often too late, and often despite very reasonable levels of maintenance 
of their homes, that their child has become lead poisoned. The toil and 
sweat come from the men and women of these community organizations who 
every day administer to the many needs of families facing these 
uncertainties.
    Everyone in Rhode Island is working to clean up the lead paint 
mess. Municipal government, and thus municipal taxpayers, are pitching 
in. State government through many agencies, and thus State taxpayers, 
are pitching in. Federal efforts have been made through HUD, the EPA, 
and the Department of Justice. Volunteers and staff of community 
organizations are pitching in. Families, of course, bear a terrible 
share of the burden: the lead poisoning of their children, the worry 
and woe of mothers and fathers, the displacement of families from their 
homes, even the minor trauma of holding your child as painful and 
frightening procedures are performed to test for lead poisoning or to 
chelate lead out of the child's blood. Landlords and homeowners are 
pitching in, cleaning up lead paint that may have been put on years 
before they bought the home. There is only one group not pitching in: 
the lead pigment companies who sold this toxic material for decades, 
profited from it, lied about it, and are now trying to evade even the 
most microscopic share of 
responsibility for cleaning up the mess they created.
    After determining that the pigment companies were prepared to do 
essentially nothing about this problem,\12\ I filed a lawsuit, to 
determine what the fair share of responsibility of these companies is--
I know it is more than zero--and to get the companies to contribute 
that fair share to the remedy of this problem.
---------------------------------------------------------------------------
    \12\ The effort most touted by the pigment companies is 
ClearCorps--a program of ``lead abatement,'' which consists of deep 
cleaning. Although the effort of deep cleaning by ClearCorps is a 
positive development, the pigment manufacturers really only have 
minimal involvement and investment in the project, as it is primarily 
staffed by Americorps volunteers paid for by U.S. taxpayers. ClearCorps 
has performed deep cleaning in 122 units in Rhode Island.
---------------------------------------------------------------------------
    The lawsuit was filed on October 12, 1999. The defendants are The 
Lead Industries Association, Inc., American Cyanamid Company, Atlantic 
Richfield Company, E. I. DuPont de Nemours & Company, The O'Brien 
Corporation, Conagra Grocery Products Company, The Glidden Company, NL 
Industries, Inc., SCM Chemicals 
and The Sherwin-Williams Company. The State of Rhode Island is 
represented by 
myself and my office, by a highly regarded Rhode Island law firm which 
represented the State with great success in litigation arising out of 
Rhode Island's 1991 bank failures, and by a national firm which has the 
depth to withstand the inevitable blizzard of paper. As Attorney 
General, I am directly involved in this case, guide its strategy, and 
successfully argued the case for the State against the motions to 
dismiss.
    Our allegations fall into three groups. There are equitable counts; 
there is a statutory count under a Rhode Island State consumer 
protection statute; and there are a number of traditional tort counts 
which bear on the properties owned or maintained by the State of Rhode 
Island in its proprietary capacity.\13\ For example, the public 
nuisance count would enable the Rhode Island Superior Court within its 
equitable jurisdiction to impose a reasonable order allowing more rapid 
and complete abatement of lead paint than the State presently has 
resources to accomplish. As the Rhode Island General Assembly has 
noted: ``Rhode Island presently does not have the public nor the 
private resources to handle the total problem.'' \14\
---------------------------------------------------------------------------
    \13\ The equitable counts I am prosecuting in the State's sovereign 
capacity to obtain injunctive, equitable and other relief necessary to 
abate present harms and to protect the future health and well-being of 
Rhode Island's children. Public nuisance is in this category of claims.
    The statutory count alleges violation of the R.I. Deceptive Trade 
Practices Act, R.I. Gen. Laws Sec. 6-13.1, and is brought pursuant to 
the authority vested in my office by the General Assembly by that 
statute and pursuant to my authority to prosecute offenses and other 
legal or equitable processes. R.I. Gen. Laws Sec. Sec. 42-9-4-42-9-5.
    The tort counts I am pursuing for the State in a proprietary 
capacity include strict liability, negligence, negligent 
misrepresentations and omissions, and fraudulent misrepresentations and 
omissions.
    I also seek damages from the defendants with counts of civil 
conspiracy, unjust enrichment, and indemnity.
    \14\ R.I. Gen. Laws Sec. 23-24-6-2.
---------------------------------------------------------------------------
    I should point out that a public nuisance lawsuit, when brought by 
a responsible public official to vindicate a public harm, is not an 
ordinary piece of litigation. Its primary purpose is not to resolve a 
dispute between contending private parties, but rather to protect the 
public health, safety and welfare. A public nuisance lawsuit is, in 
some measure, an exercise of the police power of the State.
    Public nuisance law in Rhode Island and in most jurisdictions in 
this country requires first, that there must be a public nuisance. That 
means there must be a harm either to a public right or to a sufficient 
number of members of the public as to implicate a public interest,\15\ 
and the harm must be serious and not merely trivial or annoying. This 
has been defined as an unreasonable interference that arises when 
``persons have suffered harm or are threatened with harm that they 
ought not 
have to bear.'' \16\ Second, it must be determined who is responsible 
for the public 
nuisance. The standard of responsibility is whether the defendant has 
created or 
maintained the public nuisance or contributed to or participated in the 
creation or 
maintenance of the public nuisance.\17\ Finally, if a public nuisance 
is proven to be 
a defendant's responsibility, the judge then has the authority to enter 
a reason-
able order, consistent with the nature of the nuisance and with 
considerations 
of due process, as well as common sense and efficiency, for the 
protection of the 
public health.
---------------------------------------------------------------------------
    \15\ Hydro-Manufacturing, Inc. v. Kayser-Roth Corp., 640 A.2d 950, 
959 (R.I. 1994).
    \16\ Wood v. Picillo, 443 A.2d 1244, 1247 (R.I. 1982).
    \17\ U.S. v. Hooker Chemical and Plastics, 748 F.Supp 67 (W.D. N.Y. 
1990).
---------------------------------------------------------------------------
    What remedy do we seek that will relieve Rhode Island children of 
the hazard of lead paint poisoning? Ideally, all lead paint needs to be 
removed from residences where children may be exposed. With limited 
resources, the first priorities are 
(1) to remove lead from friction surfaces such as doors and windows, 
(2) to assure that repairs and maintenance are done in a way that does 
not expose residents to lead dust, and (3) to encapsulate lead 
surfaces, since it is lead's nature to chalk and form poisonous dust.
    I will conclude my remarks by observing that I am just a small 
State Attorney General, and this lawsuit has provided me my first 
experience of national level spin. I will not bore you here with a 
description of the various characterizations of this lawsuit, 
characterizations of my motivations or characterizations of the facts 
of lead paint poisoning. It will suffice to say that we wish as quickly 
as possible to bring this case forward, so that we can present the 
State's case and the defendants can present theirs, and a decision can 
be made not on rhetoric or spin but on evidence and facts. One way or 
the other, our case will stand or fall on its factual and legal merit. 
We look for the outcome of that process to be a fair and sensible order 
requiring the defendants to contribute in a fair and sensible way to 
the clean up of the mess they made.
    If Rhode Island is to be considered the lead paint capitol of the 
United States, then let it as well be considered the capitol of lead 
paint solutions--solutions to a silent public health menace to our 
children and to children throughout the United States.
                               ----------
                 PREPARED STATEMENT OF RICHARD A. FATUR
                  Environmental Protection Specialist
                  Colorado Department of Public Health
                          and the Environment
                           November 13, 2001
    Good morning, Chairman Reed, Senator Allard, and Members of the 
Subcom-
mittee. My name is Rick Fatur, and I am an Environmental Protection 
Specialist with the Colorado Department of Public Health and the 
Environment's Lead-Based Paint Program. This morning, I have been asked 
to testify before your Subcom-
mittee on Colorado's Lead-Based Paint Program.
    First, I want to thank you for inviting me to this discussion on 
State and local lead-based paint programs.
    I would like to start by giving you a summary and overview of our 
State program.

<bullet> I would say that Colorado is an example of a State with an 
    average childhood lead poisoning problem. We have found that 3-4 
    percent of the children tested have elevated blood lead levels, 
    which is close to the national average. We have identified pockets 
    or areas where 15-20 percent of the children have elevated blood 
    lead levels. But we do not seem to have the problem some States 
    have where certain cities or areas may have up 50 percent of the 
    children with elevated blood lead levels.
<bullet> The only current Colorado State lead-based paint (LBP) 
    regulation covers the abatement of lead-based paint.
<bullet> Colorado's LBP regulation for abatement is nearly identical in 
    content to the Federal EPA LBP regulation for abatement, with just 
    a few minor differences.
<bullet> The current regulation covers the following items.
1. There are requirements for conducting:
<bullet> LBP Inspections
<bullet> LBP Risk Assessments
<bullet> Abatement Projects
2. In addition, Abatement Projects:
<bullet> Have requirements for Notification
<bullet> Need to be conducted by certified abatement firms using 
    certified workers and 
    supervisors
<bullet> Are inspected by the State to ensure that proper work methods 
    are being used
3. Compliance:
<bullet> Enforcement actions may be taken for noted violations
4. We require certification of:
<bullet> Abatement Firms
<bullet> Workers, Supervisors, Designers, Inspectors and Risk Assessors
5. We approve Training Providers:
<bullet> Classes are audited to ensure proper course content
<bullet> Overall the State regulation is working well. Inspections, 
    risk assessments, and abatements are presently all voluntary 
    activities. I believe lead poisoning could be further reduced if 
    triggers could be introduced requiring these activities be 
    conducted under certain circumstances.

    I would now like to address some of the positive aspects of our 
program.

<bullet> We are showing an increase in abatement activities/projects, 
    which shows that people are becoming more aware of the problem.
<bullet> We are also showing an increase in the number of abatement 
    firms, and all personal certifications.
<bullet> Working ``lead-safe,'' by containing and controlling lead 
    hazards, is becoming more a common practice.
<bullet> Since inspections, risk assessments, and abatements are 
    voluntary actions, a major part of the program is outreach and 
    education. We developed a Colorado Lead Coalition to help us with 
    these activities and are seeing very good results from its work. 
    Incidentally, the EPA honored our Colorado Lead Coalition with an 
    Environmental Achievement Award on October 30. Members of the 
    Coalition include:

        Colorado Department of Public Health and Environment
        Environmental Protection Agency
        Colorado Department of Housing
        Denver Environmental Health
        Denver Housing and Neighborhood Development
        Northeast Denver Housing Center
        Denver Water Board
        Agency for Toxic Substances and Disease Registry

    New Coalition members for this next year will include:

        OSHA
        HUD
        El Paso County Health Department

<bullet> The Colorado program for testing children is working well and 
    we continue to see an increase in the number of children being 
    tested.
<bullet> We have begun the process of revising our State regulation to 
    mirror the new EPA regulatory requirements issued in January 2001.

    Finally, I would also like to discuss some of the problems we have 
seen, not only 
within our State, but also nationally.

<bullet> By far the majority of projects are being done for the purpose 
    of renovation and remodeling, not abatement. Abatement is the 
    elimination of lead-based paint hazards and must be conducted in 
    accordance with existing regulations. HUD requires some training to 
    control lead-based paint hazards during HUD renova-
    tion and remodeling projects, but the vast majority of renovation 
    and remodeling projects are still being done by untrained persons 
    without any control measures.
<bullet> Again, I believe that lead poisoning could be further reduced 
    if triggers could be in-
    troduced requiring inspections before renovation and remodeling is 
    permitted, 
    and requiring that risk assessments and abatement be conducted 
    under certain 
    circumstances.
<bullet> The EPA needs to promulgate their other regulations as quickly 
    as possible to close the present loopholes. These include the 
    regulations covering:

        1. Renovation and Remodeling
        2. Buildings, Bridges, and Structures

<bullet> One of the most significant problems involving lead-based 
    paint is the lack of funding or financial assistance available for 
    abatement or lead-safe renovation and remodeling. Although there 
    seems to be enough funding for training, outreach, education, and 
    even free training classes, almost no money exists to help the 
    underprivileged families who have lead poisoned children and have 
    an urgent need for interim controls or abatement to correct lead-
    based paint hazards in their homes. We should think of ways to 
    focus more immediate attention on this issue.

    We will all need to work together to resolve some of these problems 
in order to reach our Nation's goal of eliminating childhood lead 
poisoning by the year 2010.
    Thank you very much and I would be glad to respond to any questions 
you may have. I have also included a rough diagram of LBP regulations 
and how they affect each other. I would be glad to discuss the diagram 
if anyone has any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    PREPARED STATEMENT OF SUE HELLER
                      Project Administrator of the
                   Manchester Lead Abatement Project
                        Manchester, Connecticut
                           November 13, 2001
    I am Sue Heller and I run the Manchester, Connecticut Lead 
Abatement Project (LAP). Thank you for inviting me to talk about lead. 
I am proud to be here in the presence of so many lead gurus who have 
directed their own energies and staff work toward lead solutions.
    Senator Reed has scheduled the first lead hearing in 10 years, 
another milestone in his quest to end childhood lead poisoning in real 
time. Senator Reed has a proud lead legacy in bills, allocations, the 
Medicaid mandate and the national designation of Lead Week. What better 
place to be, in a hearing where rank is accorded to Senator Wayne 
Allard, who represents Leadville. Today, we are all from Leadville.
    Connecticut's lead muse is Senator Christopher Dodd, a long-time 
champion of children, housing and Medicaid. Senator Joseph Lieberman 
provides Connecticut with ongoing knowledgeable, substantive support to 
the lead issue and to projects. Our Representative John Larson actively 
seeks out and disseminates successful lead measures through his 
district.
    Manchester, as a HUD grantee is lucky to have the insightful 
effective leadership of David Jacobs the Director of HUD's Office of 
Healthy Homes and Lead Hazard complemented by valuable counsel from 
Ellis Goldman and Stan Galik.
    Special thanks to Nick Faar, at the National Center for Healthy 
Housing and Don Ryan of the Alliance to End Childhood Lead Poisoning 
who are constant mentors.
    The town of Manchester's sound administrative infrastructure has 
benefited LAP through leadership from Mayor Stephen Cassano, longtime 
Health Director Ronald Kraatz, and Town Managers Richard Sartor and 
Steven Werbner among others. There has been nonpartisan support from 
the legislature (kudos to Representatives David Blackwell and Jack 
Thompson), with help from the Governor's office, and officials from the 
State Departments of Public Health and Economic and Community 
Development. On a day when thoughtful people around the world are 
preoccupied with national values, security and other imponderables, it 
is a comfort to be able to talk about a preventable soluble problem--
childhood lead poisoning.
Connecticut Issues
    Visitors come to Connecticut to tour historic old homes. The 
strength of Connecticut's housing market is dependent on old and 
attractive housing, 1,113,000 housing units were built before 1980 and 
462,000 built before 1950. It is estimated that nearly 500,000 carry 
some lead risk, 65,000 have real hazards.
    Lead safe work practices are not universally used by Connecticut 
construction workers or remodelers who work on older housing, which 
have more weather beaten wooden construction and wrap-around porches, 
than in other sections of the country. Whether remodelers call what 
they do lead work or not, lead is involved in construction or repair of 
old houses; the danger is that construction can create dust and risk, 
in the absence of lead-safe practices. And workers in some industries 
bring lead dust home from work on clothes or shoes particularly 
hazardous if they hug their children when they come home from work 
before they shower and change clothes.
    While blood lead screening is increasing in the large cities, not 
enough testing is done and too few children are screened or tested at 
appropriate intervals. Smaller jurisdictions do less testing so 
children who have low lead levels without obvious symptoms are often 
not identified. Medicaid children are frequently not tested 
despite a Federal Medicaid mandate.
    In 1999 alone, 2,017 Connecticut children (under 6 years of age) 
were found to have blood lead levels over 10  g/dL, a recognized level 
of concern and 460 over 20  g/dL, the level that usually defines 
poisoning. There are many additional children with elevations who were 
tested in other years or have never been tested at all.
    Many of the State's 228,000 children under 6 years old and 
particularly the 31,399 in poverty or those Medicaid-eligible are 
vulnerable to lead poisoning, because they move frequently from one 
substandard house to another.
    While State regulation obligates landlords to correct home 
environmental conditions when a child is poisoned at a blood lead level 
over 20 mg/dL, insufficient cash flow in low-income housing deters 
compliance. There are few if any financial resources to remediate 
housing conditions for mildly poisoned youngsters, who are not covered 
by regulation. Recent studies indicate that children are more 
vulnerable to lower and lower levels of lead even under 10 mg/dL, once 
thought to be the upper limit of safe exposure and that poisoning is 
likely to be irreversible (fortunately treatable). Therefore, 
prevention--primary and secondary--offers the only real solution to 
childhood lead poisoning.
    Certainly it is cheaper for both the private and public sectors to 
maintain existing housing stock by treating a unit preventively for 
lead at $2,500 to $5,000 a unit, than to abate at $10,000 or to replace 
at over $100,000, a unit.
State Approaches
    Connecticut responds to the prevailing lead problems of old 
housing, ignorance of lead safety, insufficient screening and a 
shortage of resources.
    The Health Department delivers lead information to the public 
through training, and widely disseminated literature and videos. 
Manchester has piloted many training measures for the State: lead-safe 
practices needed to meet 1012-13 regulation, CEU licensure in day care 
real estate brokerage and construction contracting. The New England 
Lead Coordinating Committee's Keep It Clean Campaign, which promotes 
lead safe work practices, was born in Manchester, Connecticut, and 
spread quickly through the State, and region, training personnel in 
paint and hardware stores to help customers to address lead hazards 
effectively.
    Some jurisdictions have succeeded in winning lead grants but some 
of the most leaded areas have been unsuccessful at competing for scarce 
Federal lead funding. (Bridgeport has the highest number of lead cases 
in the State.)
    Connecticut has built a local network to deal with lead using 
municipal health departments and doing quarterly in-service education. 
The court system has been proactive in enforcing laws. Hartford, has 
begun to use post office resources to generate attention and resources 
from stamps and cancellation messages. Hartford has also an interactive 
reading program for beginning readers based on lead. Connecticut has 
studied blood lead screening data comparing State-wide data with 
Medicaid data, which points to the need for remediation in Medicaid 
households. There are two successful lead-safe houses to serve the 
State for relocation. They are frequently full; the lead-safe houses 
themselves require added resources to maintain their own code-compliant 
lead safe conditions.
Manchester Approaches
    Manchester has used the 325 dwellings abated with HUD's lead money 
as laboratory cases to pilot innovations. We have moved closer to 
prevention by invoking four different levels of lead intervention, 
reducing average unit costs for abatement to less than $8,000 from the 
$11,500 it cost us in 1997 (in a range of $1,000 to $12,000 now). 
(Around the State costs are generally much higher, but will probably 
drop with experience). LAP generates local economic development by 
identifying and launching business opportunities presented by lead to 
local construction contractors, workers and suppliers. We have 
developed a local economic sector of the construction industry devoted 
to lead along with customized training for thousands of participants 
from various population groups, thereby building local capacity to deal 
with lead in many quarters.
    Certified job training and placement has aided hundreds of 
construction workers, many underemployed or unemployed. We have used 
lead funds to trigger home ownership for 14 low-income, first-time 
homebuyers affecting about 30 households. Manchester has been able to 
meet town community development and housing affordability objectives as 
we spend HUD's abatement money. We combine community 
development block grant funds (CDBG) and other dollars and policies to 
effect comprehensive, integrated rehabilitation in a single scope of 
work to carry out town community investment objectives.
    LAP developed a lead insurance pool, which induced construction 
contractors to engage in abatement. Because of our excellent experience 
rating, the insurance industry extended coverage to more contractors 
and lowered annual premiums to an affordable $6,000-$8,000 from $18,000 
to $24,000 it charged earlier.
    We continually export our local experience to other communities, 
the region and the State. LAP won a National Best Practices Award and a 
local Customer Service Award, LAP was cited for cost-effectiveness, 
education, prevention capacity building and creativity. But this is not 
sufficient to fulfill our mission to make Manchester a lead-safe 
community. Dollars are needed to complete our work and institute more 
preventive measures earlier to target needy households, before a child 
is poisoned.
LAMPP
    Manchester recently spearheaded LAMPP, Lead Action for Medicaid 
Primary Prevention, which was jump-started by Senator Dodd early in its 
development less than 2 years ago. The Senator responded to the 
opportunity to ensure the maximum 
potential for Medicaid children who are more vulnerable to lead risks 
and other compromising conditions. The exposure given through Senator 
Dodd's interest expedited LAMPP's development and encouraged 
participation.
    LAMPP will rehabilitate lead hazards in residential units that 
house Medicaid youngsters around the State. Children under 6 years of 
age with mild elevations of blood lead will be referred by Medicaid's 
Managed Care health providers so that their homes can be treated with 
preventive, low-cost, cost-effective lead treatment measures. Window 
repair or replacement, paint stabilization and grass seeding will be 
complemented by home environmental assessments and education for 
parents and landlords. The State just allocated $200,000 a year for a 2 
year pilot. Local contributions will come from existing lead and 
housing programs, private participation, State bonding, Medicaid, 
Medicaid providers, hospitals, etc. and, if we are properly persuasive, 
from the Federal Government. LAMPP is operated by the Connecticut 
Children's Medical Center.
    LAMPP was spawned by State lead entities under auspices of the Get 
the Lead Out Coalition, public and private sector health and housing 
entities collaborating with property owners, hospitals, nonprofits, 
public agencies and legislators from both sides of the aisle. LAMPP is 
modeled after Manchester's LAP, itself a collaborative effort. LAMPP 
will address lead poisoning which disproportionately affects Medicaid 
recipients--poor youngsters who live in older housing.
LAMPP Benefits
<bullet> Improve health of Medicaid children--who are most at risk.
<bullet> Invest in affordable housing and home environmental conditions 
    thereby aiding occupants, owners and neighborhood residents.
<bullet> Pilot for Medicaid as an approach to meet the letter and 
    spirit of its Federal Medicaid mandate.

    Based on what we have learned, what must be done to solve lead 
poisoning?

<bullet> Devote more funds to deal with children at risk who are not 
    poisoned, continu-
    ing to react to those already poisoned. Prevention measures in 
    needy households 
    cost less.

    Judicious management can shorten the solution period and broaden 
the impact of expenditures permitting economy and cost-effectiveness, 
simultaneously promot-
ing economic development and housing improvement.

<bullet> Increase blood lead screening and use the data dynamically to 
    guide remediation. Pinpoint Medicaid youngsters who are 
    disproportionately at risk and for whom the Federal Medicaid 
    mandate can provide a functional and financial lever.
<bullet> Target money to vulnerable but not yet poisoned youngsters at 
    an early age. LAP's early action alternatives are directed at lead-
    safety for newborns encouraging nursery preparation and prenatal 
    education for parents. LAP is partnering with a target neighborhood 
    elementary school to formulate a curriculum to educate children, 
    their parents, and teachers .
<bullet> Lower costs as we gain more knowledge from best practices, 
    research, and equipment.
<bullet> Economic incentives must be identified to encourage repair as 
    opposed to replacement, because routine repair can be cheaper.
<bullet> Demonstrate to owners how a turnover strategy, to treat units, 
    between tenants, preemptively quickly and cost-effectively, can pay 
    off.
<bullet> Demythologize lead treatment: its costs and its liabilities, 
    by demonstrating cost-effective remediation.
<bullet> Listen to affected constituencies to respond to concerns by 
    parents, landlords, construction contractors, real estate market 
    participants, and health providers.
<bullet> Convey information customized on a need to know basis to 
    attract audiences.
<bullet> Increase outreach and marketing to broaden the constituency 
    for lead.
<bullet> Find private sector partners so lead safety can evolve from an 
    iffy supposition for them into an ongoing sound investment 
    maintenance strategy recognized by the real estate market.
<bullet> Upgrade rehabilitation skills--teaching remodelers about lead 
    safe practices and expedite remediation with help in relocation, 
    etc. Offer technical aid widely, encouraging those who can afford 
    to remediate themselves.

    Programs like ours can only remediate an infinitesimal (3 percent) 
of the real needs. With additional dollars wisely used and carefully 
targeted we can satisfy the necessary demand for assisted remediation. 
(LAP has only been able to abate 368 units out of 680 applicant units 
of the estimated 13,250 dwelling units in need in the target area.) 
Early prevention can deter the lifelong neurologic impairment of kids, 
preclude even more costly treatment of poisoned children and their 
households and stem the need for expensive special education and 
behavioral intervention necessary once a child is poisoned. Well 
managed, the strategy can be implemented in a few years with compound 
benefits: healthier children, sounder housing, and improved 
neighborhoods.

</pre></body></html>
